                      UNCLASSIFIED

   United States Department of State

 and the Broadcasting Board of Governors

         Ofﬁce of Inspector General





                 Ofﬁce of Audits


Evaluation of the Information 

 Technology Consolidation 

       Project at the 

   Department of State

 Report Number AUD/IT-10-11, February 2010




                                IMPORTANT NOTICE


 This report is intended solely for the ofﬁcial use of the Department of State or the
 Broadcasting Board of Governors, or any agency or organization receiving a copy
 directly from the Ofﬁce of Inspector General. No secondary distribution may be
 made, in whole or in part, outside the Department of State or the Broadcasting
 Board of Governors, by them or by other agencies or organizations, without prior
 authorization by the Inspector General. Public availability of the document will be
 determined by the Inspector General under the U.S. Code, 5 U.S.C. 552. Improper
 disclosure of this report may result in criminal, civil, or administrative penalties.




                        UNCLASSIFIED

                                 UNCLASSIFIED




                                                    United States Department of State
                                                    and the Broadcasting Board of Governors

                                                    Office of Inspector General




                                         PREFACE


     This report was prepared by the Office of Inspector General (OIG) pursuant to the Inspector
General Act of 1978, as amended, and Section 209 of the Foreign Service Act of 1980, as
amended. It is one of a series of audit, inspection, investigative, and special reports prepared by
OIG periodically as part of its responsibility to promote effective management, accountability
and positive change in the Department of State and the Broadcasting Board of Governors.

     This report is the result of an assessment of the strengths and weaknesses of the office, post,
or function under review. It is based on interviews with employees and officials of relevant
agencies and institutions, direct observation, and a review of applicable documents.

      The recommendations therein have been developed on the basis of the best knowledge
available to the OIG and, as appropriate, have been discussed in draft with those responsible for
implementation. It is my hope that these recommendations will result in more effective,
efficient, and/or economical operations.

     I express my appreciation to all of those who contributed to the preparation of this report.




                                           Harold W. Geisel
                                           Deputy Inspector General




                                 UNCLASSIFIED

                                             UNCLASSIFIED





                                TABLE OF CONTENTS

EXECUTIVE SUMMARY . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

BACKGROUND . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 5

OBJECTIVE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9

EVALUATION RESULTS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

   IT Consolidation Customer Service . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 11

   Implementing the IT Consolidation Project . . . . . . . . . . . . . . . . . . . . . . . . . . . . 28

   IT Consolidation Costs . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 35

RECOMMENDATIONS . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 43

ABBREVIATIONS .         . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 45

APPENDICES

   A. Scope and Methodology . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 47

   B. Bureaus and Ofﬁces Visited . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 49

   C. Department of State Response . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 51





                                               UNCLASSIFIED

                                                  UNCLASSIFIED





                                EXECUTIVE SUMMARY

        On July 18, 2007, the former Secretary of State announced the decision to
    consolidate the Department of State’s desktop computer services and support under
    the Bureau of Information Resource Management (IRM) within 2 years. This deci-
    sion was one of a series of eight major management reforms made by the former
    Secretary intended to improve the Department’s information technology (IT) ef-
    fectiveness. According to IRM, IT Consolidation will allow for an optimized and
    cost-effective IT infrastructure supporting agency missions and customer-centric
    services. Included in the stated goals of the IT Consolidation initiative are improving
    customer service, enhancing IT security, and reducing IT costs.

        During recent reviews and inspections, the Ofﬁce of Inspector General (OIG)
    became aware of frustrations from the executive ofﬁces and IT management of vari-
    ous bureaus regarding the implementation of the IT Consolidation Project. Accord-
    ing to the IRM IT Consolidation Schedule, 25 bureaus and ofﬁces had consolidated
    their services as of October 1, 2009. Consolidation for the remaining participating
    bureaus and ofﬁces was intended to be completed by the fourth quarter of FY 2009;
    however, IRM has experienced delays attributable to bureaus’ resistance in consoli-
    dating their desktop services and to moving forward with the discussion process. IT
    Consolidation for the remaining nine bureaus is now expected to be completed by
    the second quarter of FY 2010.1

        To manage and implement the IT Consolidation Project, the Chief Information
    Ofﬁcer (CIO) has taken several positive steps under an ambitious 2-year imposed
    schedule. The IRM customer satisfaction survey, for example, is conducted on a
    semiannual basis and is provided to all IRM customers in consolidated bureaus to as-
    sess their satisfaction with services received. Further communication with bureau of-
    ﬁcials occurs during Customer Service Advisory Forum (CSAF) meetings—forums
    for stakeholders to provide their experience, insight, and feedback during the plan-
    ning and implementation of the IT Consolidation and after consolidation operations
    have been initiated. Additionally, the IT Mart was created as a one-stop shop, located




    1
     The Ofﬁce of Inspector General is not going to become a part of the IT Consolidation Project
    due to its statutory independence per the Inspector General Act of 1978, as amended.


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   1 .


                                                  UNCLASSIFIED
                                                    UNCLASSIFIED




               centrally within the Department, to handle service requests. Other steps taken in-
               clude periodic electronic newsletters to update stakeholders on the Project’s progress,
               a dedicated IT Consolidation Web site, and town hall meetings.

                   The IT Consolidation Program Management Ofﬁce (PMO) stated that its
               number one priority in pursuing IT Consolidation was customer service. However,
               OIG found a signiﬁcant level of customer dissatisfaction among bureaus about the
               quality and timeliness of IT services after consolidation. OIG was unable to sub-
               stantiate these claims because the Department did not maintain customer service
               baseline information prior to consolidation and bureaus did not have documentation
               to support their claims of better customer service prior to consolidation. Because of
               the inability to have a customer service baseline, OIG distributed customer service
               surveys to bureau executives, IT staff, and end users. Of more than 700 survey com-
               ments received by OIG on its survey from executive directors and users, more than
               80 percent of respondents reported that they were more satisﬁed with the IT sup-
               port provided by their respective bureau IT staff prior to consolidation. Bureau exec-
               utive directors and their IT staff attributed their dissatisfaction with IRM customer
               service support to (1) the lack of timeliness in resolving trouble tickets,2 (2) the lack
               of training and the low skill levels of IRM technicians, (3) the lack of clarity of in-
               scope and out-of-scope3 responsibilities for IT services, (4) the inconsistent sharing
               of information systems security ofﬁcer (ISSO) duties, (5) the lack of communication
               between IRM staff and bureau customers, (6) the non-prioritization of VIP services,
               and (7) the lack of accountability among IRM staff related to the movement of
               inventory.

                   The IT Consolidation PMO also did not develop business, user, system, or
               performance requirements as required by project management guidelines. In addi-
               tion, the CIO did not make the necessary policy changes to address the ownership
               transfer of pre-existing IT plans of action and milestones, inventory control, ISSO
               responsibilities, and the handling of mission-speciﬁc and personnel-sensitive infor-
               mation. Also, the Department did not implement staff selection criteria for IT staff.
               As a result, IRM did not have control over which bureau IT personnel were reas-
               signed to the IRM customer service helpdesk after consolidation.




               2
                 “Trouble ticket” is the term used by the Department to refer to helpdesk service requests.
               3
                 In-scope responsibilities are handled by IRM after IT Consolidation, while out-of-scope respon-
               sibilities remain the responsibility of the respective bureau.


2 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                    UNCLASSIFIED
                                                  UNCLASSIFIED



        OIG found that the Department did not have actual or comparative cost infor-
    mation to demonstrate whether consolidating services resulted in reduced costs for
    desktop support services and systems maintenance, which was one of the primary
    goals of the Project. The inconsistent manner in which bureaus accounted for IT
    services costs was one element hindering IRM’s ability to make a comparative cost
    analysis. The limited cost analysis performed by IRM prior to bureau consolidation
    and the lack of transparency between bureaus and the IT Consolidation PMO fur-
    ther contributed to cost data shortcomings.

         As a result of these issues, the Department has not met some of its intended
    consolidation goals—improving customer service and reducing IT costs. For exam-
    ple, with the perception of poor customer service, end-users addressed service prob-
    lems by using resources within their own bureaus rather than by requesting assistance
    from IRM. Therefore, IRM may have an inaccurate sense of bureau satisfaction with
    consolidation efforts, as well as an inaccurate picture of stafﬁng requirements and
    IT costs, which ultimately affects the bureaus. Further, the IT Consolidation PMO
    cannot ensure that the consolidation effort is and remains aligned with Department
    goals, since there are no deﬁned Project requirements to measure Project progress.
    The lack of a thorough understanding of costs by bureau ofﬁcials and staff has di-
    minished the staffs’ overall support and commitment to the IT Consolidation Proj-
    ect.

        The beneﬁts of IT Consolidation are not yet fully realized. The manner in which
    the IT Consolidation Project has been implemented could be improved. The needed
    improvements will require an open and cooperative relationship between IRM and
    those bureaus participating to be effective, including IRM’s attention to outstanding
    customer service and cost issues as well as participating bureaus’ lack of resistance to
    discussions.

        OIG also reviewed whether adequate security measures are in place to mitigate
    unauthorized access to, or use of, bureau-sensitive information. The results of this
    portion of the review will be issued in a separate report because of its sensitive
    nature.

    Management Comments

         In November 2009, OIG provided a draft of this report to the Department for
    its review and comments. In its December 15, 2009, response to the draft report,
    Department ofﬁcials stated concurrence with nine of the report’s 10 recommen-
    dations. However, the ofﬁcials requested the elimination of Recommendation 9,
    indicating that the issue of specialty functional descriptions for IT specialists is more


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   3 .


                                                  UNCLASSIFIED
                                                    UNCLASSIFIED




               of a Department-wide matter than IT Consolidation speciﬁc. Based on the Depart-
               ment’s response, OIG considers nine recommendations resolved, pending further
               action. Also based on the response, OIG has modiﬁed Recommendation 9 to be
               more IT Consolidation speciﬁc and requests that the Department respond to the
               new recommendation.

                  The Department’s comments and OIG’s reply are presented after each recom-
               mendation, and the Department’s response is presented in its entirety in Appendix C.




4 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                    UNCLASSIFIED
                                                  UNCLASSIFIED





                                            BACKGROUND

          Consolidation of IT services within agencies has become an initiative highly
    encouraged by the Ofﬁce of Management and Budget (OMB). Under OMB’s IT In-
    frastructure Line of Business,4 agencies are encouraged to achieve interoperability of
    functions; collaborate with others; reduce and avoid common IT infrastructure costs;
    and improve governance of IT investments in support of agency missions, pro-
    grams, and Government-wide goals. Many Federal agencies view consolidation as an
    opportunity to minimize costs and duplication of services while increasing security
    and improving customer service. In fact, several agencies have already consolidated
    IT services within their organizations and have noted lessons learned for all agen-
    cies. These lessons include providing adequate guidance or communication of best
    practices to contractors and staff, reducing duplication of services and unnecessary
    costs, addressing the human resources issue at the beginning of the consolidation,
    and encouraging communication and teamwork.

         At the Department of State, the Chief Information Ofﬁcer (CIO) is leading the
    effort to consolidate the agency’s IT services. The initiative will include consolidating
    the Department’s desktop operations, which consist of more than 24,000 unclassi-
    ﬁed and 13,000 classiﬁed desktop computers and their ofﬁce automation products.
    Further, the Department will consolidate user data stores, domestic customer e-
    mails, the common network infrastructure supporting desktop operations, and IT
    helpdesks. The IT Consolidation Project, directed by the former Secretary of State,
    is intended to offer bureaus better customer service and IT security, a standard op-
    erating environment for desktops, and IT helpdesk staff training and development
    while achieving economies of scale and lower costs for the Department.




    4
     The IT Infrastructure Line of Business is a government-wide initiative chartered by OMB to
    assist federal agencies in leveraging IT performance measurement tools, best practices, and com-
    mon practices.


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   5 .


                                                  UNCLASSIFIED
                                                    UNCLASSIFIED



               Department’s IT Consolidation History

                  The planning and the implementation of the IT Consolidation effort have been
               ongoing since 2006. Since its inception, the Department has taken several steps to
               move the initiative forward, including hiring a contractor to perform data analysis,
               obtaining senior management approval, creating a program management ofﬁce to
               manage the initiative, and hiring staff to assist with the consolidation.

                   The Department, in determining that IT services should be consolidated, chose
               to evaluate the best means to accomplish this task using the OMB A-76 process.
               According to OMB Circular A-76,5 Federal agencies are required to perform A-76
               evaluations on inherently governmental and commercial functions to determine
               whether the function should be performed in-house or competed commercially by
               open sources. According to OMB, commercial activities should be subject to the
               forces of competition to ensure that the American people receive maximum value
               for their tax dollars. To satisfy this process, the Bureau of Administration contracted
               with the consulting ﬁrm Grant Thornton to perform a pre-solicitation review to
               determine whether the A-76 evaluation should be performed on IT-related services.
               The CIO modiﬁed the task order into a beneﬁt cost analysis to support a review of
               ﬁve additional service areas: IT security services, enterprise network services, mobile
               computing services, messaging services, and user proﬁle support services.

                    In September 2006, Grant Thornton started a business case analysis of con-
               solidation and its alternatives for IT services at the Department. The task included
               collecting and analyzing data for desktop-managed services performed across the
               organization, focusing on services provided domestically for unclassiﬁed systems. Af-
               ter analyzing information provided by participating bureaus, Grant Thornton recom-
               mended that the Department outsource the effort of consolidating its IT services, to
               be completed over a 5-year period. This option would ensure the highest return on
               investment and the lowest total cost of operations per user.

                   Rather than following the Grant Thornton recommendations, the former CIO
               presented a proposal to the former Secretary of State, who agreed to consolidate
               IT services internally within the Department over 2 years instead of outsourcing
               the Department’s IT services. This approach was discussed with OMB and mutually
               agreed to by both parties. In July 2007, the former Secretary of State issued a memo-
               randum to all Under Secretaries, Assistant Secretaries, and Ofﬁce Directors directing



               5
                Ofﬁce of Management and Budget Circular A-76, Performance of Commercial Activities,
               May 29, 2003.


6 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                    UNCLASSIFIED
                                                  UNCLASSIFIED




    the consolidation of desktop support and requesting their support. During that same
    time period, the IT Consolidation Program Management Ofﬁce (PMO) was formally
    established to oversee the effort. The IT Consolidation PMO has responsibility and
    authority for carrying out the IT Consolidation effort and reports directly to the
    CIO.

       In September 2007, the CIO approved the IT Consolidation Program Charter.
    Within the Charter, the IT Consolidation Project was described as having six major
    goals: improved customer service, improved IT security, cost containment, establish-
    ment of a standard operating environment for desktops, staff professional develop-
    ment and training, and the application of best practices across the enterprise. The
    consolidation of the participating domestic bureaus and ofﬁces was to begin in FY
    2007, with completion scheduled by the end of FY 2009. As of October 1, 2009, 25
    bureaus and ofﬁces had consolidated their services with the remaining bureaus and
    ofﬁces expected to be completed by the second quarter of FY 2010.

    Funding for IT Consolidation

         As of August 31, 2009, the total cost to prepare and assist bureaus in transition-
    ing to IT consolidated services was approximately $60 million. This includes the
    costs of the IT Consolidation PMO, supplemental funds provided by the Bureau of
    Resource Management (RM) to bureaus, and consolidation costs for desktop-man-
    aged services, as shown in Table 1. OIG could not determine, based on information
    provided by RM or the IT Consolidation PMO, whether the total cost included the
    $512,387 awarded to Grant Thornton to produce the beneﬁt cost analysis. Depart-
    ment ofﬁcials said that cost savings, if any, for the consolidation effort will not be
    realized until 2011 at the earliest.

    Table 1. IT Consolidation Estimated Cost Through End of FY 2009
                        Description                                          FY 2007–09 Amount
     Estimated cost to prepare and assist in
     transition to IT consolidated services                                                              $48,453,000
     Estimated incremental cost to have IRM
     perform IT services for the bureaus                                                                  11,101,000
                     Total Estimated Cost                                                               $59,554,000*
    Source: Bureau of Resource Management.

    *Note: The project is ongoing, so the total estimated cost may ﬂuctuate and does not include other 

    unknown costs.





OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   7 .


                                                  UNCLASSIFIED
                                                    UNCLASSIFIED




                    Funds for IT Consolidation came from several sources, including the IT Central
               Fund, the Working Capital Fund, the Diplomatic and Consular Programs (D&CP)
               fund, and Bureau of Information Resource Management (IRM) base funds. The IT
               Central Fund supported the operations of the IT Consolidation PMO and the provi-
               sion of infrastructure to facilitate centralized services. The Working Capital Fund
               is used to pay for the three primary service areas (service desk, standard desktop
               services, and ﬁle storage and sharing services). The Working Capital Fund is a revolv-
               ing fund that was authorized in the Foreign Assistance Act of 1963 (P.L. 88-205) to
               ﬁnance a continuing cycle of business-type operations for the Department. Consoli-
               dated bureaus contribute to the Working Capital Fund by paying their invoices for IT
               support services received under IT Consolidation. For invoices paid during the pe-
               riod of time covered by this evaluation, most funding came from D&CP. IRM base
               funds provide monies for the remaining service areas (IT security services, enterprise
               network services, mobile computing services, messaging services, and user proﬁle
               support services).




8 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                    UNCLASSIFIED
                                                  UNCLASSIFIED





                                                OBJECTIVE

        During previous Ofﬁce of Inspector General (OIG) inspections and evaluations,
    bureau information managers expressed frustration regarding the results of IT Con-
    solidation, including added costs, poor customer service, inadequate protection of
    sensitive information, and the lack of effective project management. Bureau infor-
    mation managers said that rather than having lower costs for desktop services, costs
    in some cases had doubled or even tripled. More than one third of some bureaus’
    budgets were being transferred to IRM for IT services as part of IT Consolidation,
    which resulted in many bureaus having difﬁculty providing adequate support for
    those mission-speciﬁc applications and systems that remained within those bureaus.
    In addition to higher costs, bureau ofﬁcials also said that they had received poor
    customer service, with tasks that had previously been performed within a few hours
    now taking days for any response from IRM.

        The purposes of this evaluation were to determine whether the intended beneﬁts
    of the IT Consolidation Project were being achieved, and to determine the basis for
    performance issues raised by bureau ofﬁcials and users. The objective of this evalua-
    tion was to determine whether the Department’s IT Consolidation Project

          • 	 provided improved IT customer service to consolidated bureaus,
          • 	 used an effective project management process,
          • 	 reduced costs incurred for desktop services and systems maintenance, and
          • 	 ensured that adequate measures were in place to mitigate unauthorized access
              to or use of bureau-sensitive information.

        The scope and methodology of this evaluation are detailed in Appendix A. The
    ﬁndings and recommendations presented in this report address the ﬁrst three parts
    of the objective. Discussion on the fourth part of the objective will be reported in a
    separate report because of the sensitivity of the information.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   9 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED





10 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED





                                EVALUATION RESULTS


    IT CONSOLIDATION CUSTOMER SERVICE
        The IT Consolidation PMO reported that customer service was its number
    one priority in pursuing the consolidation initiative. By centralizing desktop sup-
    port for bureau staff, PMO ofﬁcials said that customer service could be provided
    more effectively and efﬁciently. However, OIG found a signiﬁcant level of customer
    dissatisfaction among bureaus about the quality and timeliness of IT services after
    consolidation. Because of bureaus’ inability to provide a customer service baseline
    prior to consolidation, OIG distributed customer service surveys and held meetings
    with bureau executives and IT staff to substantiate their claims. OIG survey results
    and interviews showed that bureaus believe that the level of IRM customer service
    has declined as additional bureaus were consolidated and more end users depended
    on IRM’s desktop support.

        Bureau executive directors and their IT staff attributed their dissatisfaction with
    IRM customer service support to the lack of timeliness in resolving trouble tickets,
    the lack of training and low skill levels of IRM technicians, the lack of clarity for
    in-scope and out-of-scope responsibilities for IT services, the inconsistent sharing
    of information systems security ofﬁcer (ISSO) duties, the lack of communication
    between IRM staff and bureau customers, the non-prioritization of VIP services,
    and the lack of accountability among IRM staff related to the movement of inven-
    tory. However, IRM stated that some consolidated bureaus were not always willing to
    coordinate with IRM. For example, IRM mentioned that one bureau had continued
    to use a previous trouble ticket system as opposed to the current Remedy system.
    Not using the correct reporting system delays IRM in responding to service calls,
    since the IT staff has to locate the trouble ticket in order to assist the customer for
    resolution.

        With an expectation of poor customer service, bureau staff have learned to
    resolve service problems by using IT resources within their own bureaus rather than
    requesting IRM assistance as required after consolidation. As a result, IRM has an in-
    accurate and incomplete assessment of the types of problems encountered by users
    and, therefore, a resulting inaccurate assessment of customer satisfaction and stafﬁng
    requirements. With bureau executives and staff handling helpdesk issues internally


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   11 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                without going through proper IRM channels, Department-wide IT desktop issues are
                not being identiﬁed and resolved—ultimately affecting the level of service received
                by bureaus.

                Customer Service Framework

                     The Customer Service Ofﬁce (CSO), located within IRM, manages the relation-
                ship between IRM and its customers in order to promote the development, use, and
                support of IT. Currently, the CSO works to facilitate IT Consolidation by providing
                oversight for consolidated services and managing daily operations. The CSO con-
                sists of three divisions: the IT Service Center (ITSC), the Desktop Services Divi-
                sion (DSD), and the Operational Support Division (OSD). CSO has two full-time
                employees, while the ITSC has nine and the DSD has 33 employees. Since the CSO
                is funded by the Working Capital Fund, it has no staff ceiling level, and stafﬁng is
                decided based on service needs.

                    The ITSC offers a single point of contact for help with Department IT products
                and services worldwide, and it provides round-the-clock support. Most of the em-
                ployees at the ITSC are contractors, and they provide Tier I support to consolidated
                bureaus. A performance-based task order for the ITSC was awarded in September
                2008. DSD, conversely, provides Tier II and Tier III6 operations and technical sup-
                port to domestic desktop workstations. According to DSD ofﬁcials, DSD will also
                be supporting the maintenance, management, and accountability of desktop worksta-
                tion inventory for all of the consolidated bureaus in the near future. OSD provides
                quality control oversight of the service management functions of the CSO. OSD
                was created to enhance the knowledge and competency of the CSO.

                Departmental Surveys of Customer Satisfaction

                    The CSO is responsible for assessing the level of customer satisfaction with the
                service received by bureaus. IRM uses several methods to collect, analyze, and report
                information on customer service, including the IRM customer satisfaction survey.
                This survey is a semiannual survey of all IRM customers in consolidated bureaus to
                assess their satisfaction with services received. This survey provides the CSO with
                a wider view of customer satisfaction by asking customers about the quality, speed,
                and type of service received, and it provides open text ﬁelds for additional com-
                ments.

                6
                 Tier 1 consists of the IT Service Center helpdesk. If the issue is not resolved, trouble tickets
                are transferred to either Tier II or Tier III for resolution. Tier II consists of senior technicians,
                while Tier 3 normally consists of external vendors and developers.


12 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



        Based on its review of IRM customer satisfaction surveys from January and June
    2009 that had been distributed to bureau users, OIG found that customer satisfac-
    tion was signiﬁcantly lower than that reported in previous surveys. The January 2009
    survey, which was conducted from January 28 to February 25, 2009, had 794 respon-
    dents from 18 consolidated bureaus. The survey showed that customer satisfaction
    with IT services provided by IRM had declined from prior surveys by an average
    of 34 percent, from 87 percent to 53 percent, which was a signiﬁcant decline over a
    6-month period. Respondents were 21 percent less satisﬁed with IRM’s service.

        IRM’s June 2009 survey showed a small increase in customer satisfaction with IT
    services provided by IRM when compared with the January 2009 survey. Conducted
    from June 4 to July 2, 2009, the June 2009 survey had 537 respondents from 21
    bureaus. Compared with the January 2009 survey, the average percentage for cus-
    tomer satisfaction for IT desktop services increased by 5 percent, from 53 percent
    to 58 percent. The June 2009 survey results also showed a 5 percent increase in the
    average percentage regarding the timeliness of IRM’s response to IT issues/requests,
    from 59 percent to 64 percent. In addition, customer satisfaction regarding technical
    assistance and the resolution of issues and requests increased from 59 percent to 62
    percent and 66 percent to 67 percent, respectively.

    OIG Customer Service Surveys

        As part of its evaluation, OIG created and distributed two surveys from
    March 9-25, 2009, to gather insight on customer service satisfaction from executive
    directors, IT staff, and end users. The survey questions were to assess the level of
    customer service prior to and after consolidation with IRM. The questions focused
    on customer service satisfaction areas that included the timeliness of helpdesk re-
    sponses, skill levels and training of technicians, resolution of issues, and communica-
    tion between IRM and bureaus. The OIG surveys were sent to 16 executive directors
    of consolidated bureaus for distribution to their IT staff and users. Survey 1, which
    had 69 respondents, was completed by executive directors and IT staff, and Survey 2,
    which had 695 respondents, was completed by end users.

        Respondents to OIG surveys overall claimed to be not satisﬁed with IRM’s sup-
    port for IT desktop and helpdesk services. Most of the bureaus did not measure
    customer satisfaction for IT support before consolidation. However, staff in con-
    solidated bureaus reported to OIG that support for IT services was better before
    consolidation when it was provided by their respective bureaus’ IT staff; however, no
    support was provided for these claims.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   13 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED



                    The results of OIG’s surveys and those in IRM’s surveys, as illustrated in Figures
                1–7 and Table 2, showed different results, which OIG believes is due to several rea-
                sons. First, the wording of questions and the manner in which they were asked could
                lead to different responses. For example, IRM asked respondents to agree or disagree
                with whether they were “completely” satisfied with the current IT desktop services
                provided by IRM. OIG’s surveys asked respondents to rate their satisfaction with
                IRM customer service on a five-level scale. Other factors that could have influenced
                the results include the timeframes during which the surveys were conducted and the
                total number of individuals responding to each survey. The latter ultimately affected
                the total universe of respondents used for determining the percentages. IRM officials
                stated that questions in its customer satisfaction surveys were being revised to allow
                for more thorough responses.

                     As shown in Figures 1 and 2, 85 percent of the respondents in Survey 1 reported
                that they were more satisfied with the IT support provided by their respective bu-
                reaus’ IT staff. Similarly, Survey 2 showed that 82 percent of the respondents were
                more satisfied with IT support prior to consolidation. Also, the respondents’ level of
                satisfaction with IRM’s support for IT services was significantly lower. In Survey 1,
                respondents were 27 percent satisfied with IRM helpdesk support, while in Survey
                2 respondents were 44 percent satisfied. Respondents in Survey 1 also reported not
                being satisfied with VIP treatment, as illustrated in Figure 1.

               Figure 1. Bureau Executive Directors and IT Staff Customer Service Satisfaction
                                   Survey 1 - Executive Director and IT Staff Customer Service Satisfaction Levels

                           Neither Satisfied nor Dissatisfied      Very Dissatisfied/Dissatisfied         Very Satisfied/Satisfied

                                                                            4%
                          Customer Service Prior to Consolidation                11%
                                                                                                                                     85%
                                                                                 12%
                             Customer Service After Consolidation                                                     61%
                                                                                            27%
                                                                                     17%
                  Overall Satisfaction with IRM Customer Service                                                54%
                                                                                             29%
                                                                                                   35%
                           Level of Satisfaction for Service for VIPs                        28%
                                                                                                    37%

               Source: Various Department bureaus.




14 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



 Figure 2. End Users Customer Service Satisfaction
                                 Survey 2 - End-Users Customer Service Satisfaction Levels

             Very Satisfied/Satisfied         Very Dissatisfied/Dissatisfied           Neither Satisfied nor Dissatisfied
                82%


                                                                               44%            46%

                                12%                                                                          10%
                                                6%


            Customer Service Prior to Consolidation                        Customer Service After Consolidation

  Source: Various Department bureaus.


        As shown in Table 2, respondents attributed their dissatisfaction with IRM cus-
    tomer service support to the following factors: lack of timeliness in responding, lack
    of resolution of issues, low skill levels of technicians, lack of communication and
    transparency, lack of professionalism, and poor attitude of technicians. Timeliness in
    responding was identified in both surveys as the most frequent problem respondents
    experienced with IRM support.



    Table 2. Top Five Issues Pertaining to IRM Customer Service Support
    Issues                                                                           Survey 1                   Survey 2
    Timeliness in Responding                                                           41%                          48%
    Resolution of Issues                                                                5%                          14%
    Skill Level of Technician                                                          24%                          11%
    Communication/Transparency                                                          6%                          11%
    Protocol/Attitude of Technician                                                     2%                           2%
    Other                                                                              22%                          14%
    Source: Compiled from Figures 1 and 2.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   15 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED



                    Although most bureaus could not provide documentation supporting that bureau
                staff provided better IT support than IRM, OIG survey results showed the signifi-
                cant dissatisfaction expressed by bureau management and staff with IRM’s support
                for in-scope services and the resolution of issues. The results of Surveys 1 and 2 are
                highlighted in Figures 3 and 4.


             Figure 3. Satisfaction With Customer Service Areas – Executive Directors and IT Staff
                               Survey 1 -Level of Satisfaction With Consolidated IT Services and Resolutions
                                                       Executive Directors and IT Staff

                 Timeliness of Issues Resolved
                          Resolution of IT Issues
                            User Profile Services                                                                  No Comment

                              Messaging Service
                                                                                                                   Neither Satisfied Nor
                   Mobile Computing Services                                                                       Dissatisfied
                  Enterprise Network Services                                                                      Dissatisfied
                             IT Security Services
                                Desktop Services                                                                   Satisfied

                            IT Help Desk Service

                                                      0% 10% 20% 30% 40% 50% 60% 70%

             Source: Various Department bureaus.




16 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



      Figure 4. Satisfaction With Customer Service Areas – End Users
                                Survey 2 - Level of Satisfaction With Consolidated IT Services and
                                                            Resolutions
                                                              End-users

          Timeliness of Issues Resolved
                  Resolution of IT Issues
                                                                                                    No Comment
                     User Profile Services
                       Messaging Service
                                                                                                    Neither Satisfied Nor
            Mobile Computing Services                                                               Dissatisfied
           Enterprise Network Services                                                              Dissatisfied
                      IT Security Services
                         Desktop Services                                                           Satisfied
                     IT Help Desk Service

                                              0% 10% 20% 30% 40% 50% 60%


      Source: Various Department bureaus.


       Based on 675 respondents, 51 percent stated that communication was generally
    adequate or more than adequate, as shown in Figure 5.


  Figure 5. IRM Communication With Bureaus
                       Survey 2 - IRM Communication With Bureaus During Consolidation
                                                                                      More Than
                                                No Comment
                                                                                      Adequate
                                                    14%
                                                                                        11%
                        Very Inadequate
                               8%
                         Inadequate
                             9%                                           Generally Adequate
                                                                                 40%


                       Of Marginal or
                         Borderline
                         Adequacy
                            18%

  Source: Various Department bureaus.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   17 .


                                                  UNCLASSIFIED
                                                       UNCLASSIFIED



                    Several bureaus reported that IRM was trying to provide good customer service
                and that its service had improved since the beginning of the IT Consolidation effort.
                However, they also indicated in Surveys 1 and 2 that IRM still needed improvements
                in many areas, as shown in Figures 6 and 7.

                Figure 6. Areas of Improvement for IRM – Executive Directors and IT Staff
                                                       Survey 1 -Areas of Improvement for IRM

                                              Other                             7
                    Clarify In-scope/out-of-scope                                                              17
                                 Services Provided                                    9
                                                Cost        1
                   Communication/Transparency                                                       13
                               Resolution of Issues                                            12
                         Skill Level of Technicians                                   9
                         Timeliness in Responding                                                                           21

                Source: Various Department bureaus.



                Figure 7. Areas of Improvement for IRM – End Users
                                                    Survey 2 - Areas of Improvement for IRM

                                              Other                                                                  155
                              Protocol/Attitude of…             16
                  Communication/Transparency                                                   98
                              Resolution of Issues                         46
                         Skill Level of Technicians                                    77
                        Timeliness in Responding                                                                                 184

                                                       0                 50                 100                150                 200

                Source: Various Department bureaus.




18 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                       UNCLASSIFIED
                                                  UNCLASSIFIED




    Interviews With Bureau Executive Directors and Their IT
    Staff

        To validate the responses received for the surveys, OIG interviewed bureau ex-
    ecutive directors and IT staff from 16 consolidated bureaus and seven bureaus that
    were in the process of consolidating with IRM. These bureaus repeatedly expressed
    frustration with aspects of IT consolidation that are critical to the Project’s success
    and acceptance by customers. The areas that generated concerns included the re-
    sponse times for resolving trouble tickets, the training and skill levels of IRM tech-
    nicians, the clarity of in-scope and out-of-scope responsibilities for IT services, the
    sharing of ISSO duties, communication between IRM staff and bureau customers,
    prioritization of VIP services, and inventory management.

    Response Time of Helpdesk Staff

        Many bureaus expressed frustration at the amount of time it took for ITSC and
    DSD technicians to resolve trouble tickets. Bureaus said that it took three or four
    times longer for a trouble ticket to be resolved than it did before consolidation. Fur-
    ther, bureaus said that the wait time for simple issues, such as resetting a computer
    password, could take 3 to 5 days to complete. OIG was told that service for bureau
    users was faster before consolidation because the technicians knew the bureau’s IT
    architecture (its software, systems, and users). OIG was not provided with any docu-
    mentation from the bureaus to support these statements.

        IRM helpdesk technicians were rated based on performance metrics established
    in their contracts. A performance-based contract was awarded to a private-sector
    vendor for managing helpdesk staff and for operating the ITSC. OIG determined
    that the contract was written with incentives for the vendor if a certain percentage
    of trouble ticket calls received was resolved within an allocated time limit. However,
    OIG found that these performance metrics might be leading technicians to focus on
    closing trouble tickets rather than on determining the main cause of the problems,
    and then resolving the matter correctly. Some trouble tickets were also closed with-
    out any resolution noted. Bureau personnel interviewed also voiced a similar obser-
    vation. They reported that the performance metrics that were established encouraged
    technicians to respond promptly but did not necessarily lead to the correct resolution
    of the issue. Bureaus said that having a performance-based contract for desktop
    support created a lot of “gaming of the numbers” to meet the vendor’s performance
    metrics and that with performance incentives skewed toward response times, there
    was no accountability for the quality of service provided.



OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   19 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                    Reﬁning performance metrics within the helpdesk contract could help ensure
                that technicians focus on the quality and timeliness of responses, as well as on the
                proper resolution of issues. Consulting with bureau executive directors and their IT
                staffs for determining performance metrics could help ensure that users’ complaints
                are being addressed.

                    Recommendation 1: OIG recommends that the Chief Information Ofﬁcer
                    review and revise performance metrics contained within the helpdesk service
                    contracts to ensure that measures are put in place to address customer com-
                    plaints on timeliness and resolution of issues.



                Management Response

                    In its response, the CIO stated that the current service contract performance
                metrics are written to meet or exceed the Department’s Master Service Level Agree-
                ment response/performance agreements, that the Department has the ability to
                renew or renegotiate the contract to ensure that proper performance metrics are in
                place and are being met, and that the Customer Service Advisory Forum Tiger Team
                was revising the Agreement to ensure that customer feedback is incorporated into
                the performance metrics.

                    OIG acknowledges that performance metrics are contained within the perfor-
                mance contract, but it found, during the evaluation, that the metrics did not contain
                enough speciﬁcity to address customer service complaints such as timeliness and
                resolution of issues. However, the actions being taken by the Tiger Team adequately
                address the intent of the recommendation. Therefore, OIG considers the recom-
                mendation resolved, pending further action.

                Helpdesk Staff Training and Skill Levels

                    Several bureaus expressed frustration over the perceived low skill levels of tech-
                nicians who answered telephones at the ITSC. Bureau personnel noted that customer
                service was inconsistent, that the service depended on “who you got,” and that Tier
                I service was “barely a notch above leaving a message.” For example, OIG was told
                that one bureau had contacted the helpdesk to report three separate issues and that
                the technician was unclear as to whether one ticket or three tickets should be opened
                for the user. Personnel at several bureaus expressed frustration at the lack of custom-
                er service at the ITSC, stating that the technicians focused on what they could not do
                (that is, what was out-of-scope) rather than on what they could do.



20 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



        OIG reviewed material given to train helpdesk staff. The training provided to
    technicians was based on their tier assignment and was not given in a uniform man-
    ner. The training provided to ITSC staff was typically a 4- to 5-week course. ITSC
    ofﬁcials said that the material was updated often to keep pace with the need for IT
    support. The DSD also provided a copy of the training material given to its new
    employees. Despite the training material provided to ITSC and DSD technicians, the
    comments from bureaus and OIG survey results demonstrate the need to further
    ensure that all technicians have the same level of technical knowledge and skills and
    that they obtain an understanding of the Department’s missions and its customers.
    A uniform training program could ensure that all technicians have consistent knowl-
    edge and skills to provide adequate customer service.

        Recommendation 2: OIG recommends that the Chief Information Ofﬁcer
        revise the training program for helpdesk technicians to ensure that all individu-
        als have consistent knowledge and skills to provide customer support.



    Management Response

        In its response, the CIO stated that the IT Service Center helpdesk recognizes
    that training is an ongoing task and that as IRM continues to add customers through
    consolidation, “the changing environment mandates constant attention to this area.”
    The CIO further described the “appropriate training” it was implementing to “im-
    prove the skills and knowledge” of Service Desk Analysts.

        The actions being taken by the CIO to improve training adequately meet the
    intent of the recommendation. Therefore, OIG considers the recommendation re-
    solved, pending further action.

    In-Scope and Out-of-Scope Responsibilities

         OIG heard many complaints about “grey areas” for in-scope and out-of-scope7
    responsibility between IRM technicians and bureau IT staff. A service level agree-
    ment had been created between IRM and the consolidating bureaus. According to
    the agreement, IRM was responsible for providing bureaus with support for the
    eight “in-scope” service areas: IT service desk, standard desktop services, IT secu-
    rity services, enterprise network services, mobile computing services, ﬁle storage and


    7
      In-scope responsibilities are handled by IRM after IT Consolidation, while out-of-scope respon-
    sibilities remain the bureaus’ responsibility.


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   21 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                sharing services, messaging services, and user proﬁle services. Bureau IT staff were
                responsible for handling all other mission-speciﬁc service areas, or “out-of-scope”
                support services. With a history of bureaus handling the development of mission-
                speciﬁc applications, the lack of clarity on whether the bureau or IRM was respon-
                sible for support after consolidation could lead to misunderstandings and confusion.

                    Bureaus noted that trouble tickets that could not be resolved by IRM technicians
                were identiﬁed as out-of-scope issues for resolution by the bureaus themselves—
                contradicting what had been identiﬁed as in-scope and out-of-scope areas by the
                IT Consolidation PMO. For example, problems with printers had been a source of
                contention between bureau IT staff and IRM technicians. Some bureau personnel
                said that IRM technicians hastily assessed printer failures rather than thoroughly
                diagnosed the problem. As a result, IRM often determined that replacing a printer
                was the best solution, which adversely impacted bureau budgets. However, bureaus
                in most cases determined that IRM could have provided a “simple ﬁx” to the printer
                rather than replaced the equipment. Bureau personnel also commented that trouble
                tickets went back and forth continually between IRM and the bureaus. Some bureaus
                needed to hire additional staff because they were handling a large number of out-of-
                scope issues while still helping IRM with in-scope issues. Every aspect of IT Con-
                solidation became a “moving target,” with what was considered in-scope service one
                day becoming an out-of-scope issue the next day.

                    Because of the level of confusion experienced by bureaus, they relied on person-
                al contacts to handle trouble ticket issues without IRM’s assistance. With this occur-
                ring, the level of work handled by the remaining IT staff within bureaus increased—
                leading some bureaus to have hired additional staff. With IRM’s helpdesk thus being
                circumvented, IRM was not getting an accurate depiction of the type of issues being
                experienced by the bureaus. In attempting to clarify in-scope and out-of-scope re-
                sponsibilities, IRM ofﬁcials met on several occasions with the bureaus’ IT staff and
                CSAF members to better deﬁne what services were truly in-scope and out-of-scope.
                As a result of these meetings, IRM created a spreadsheet clarifying the scope of ser-
                vices supported by IRM’s and the bureaus’ respective IT staff. The spreadsheet was
                pending ﬁnal approval as of August 31, 2009.



                    Recommendation 3: OIG recommends that the Chief Information Ofﬁcer
                    approve the clariﬁed in-scope and out-of-scope service areas and disseminate
                    this information to all consolidated bureaus.




22 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



    Management Response

             In its response, CIO agreed that clarifying scope boundaries is critical and
    that it has and will continue to communicate its message regarding in-scope and
    out-of-scope services by continually meeting with customer bureaus. IRM further
    indicated that it will continue to be proactive by meeting with customer bureaus to
    redeﬁne these responsibilities as necessary.

            The actions being taken by IRM to clarify the scope boundaries and dis-
    seminate this information to all consolidated bureaus sufﬁciently addresses the intent
    of the recommendation. Therefore, OIG considers the recommendation resolved,
    pending further action.

    ISSO Duties

        Responsibility for performing ISSO duties was an area of confusion and frustra-
    tion expressed by all bureaus. The question of whether ISSO duties can be shared
    among bureau IT staff and IRM technicians is still unanswered.

        Several bureau ISSOs said that they did not have full administrative rights after
    consolidation to perform their duties. IRM had been providing either limited ad-
    ministrative rights or temporary rights just to complete a speciﬁc task; however, the
    administrative rights provided had not been applied consistently across the bureaus.
    OIG learned that in-scope and out-of-scope services varied among the bureaus, as
    did bureau ISSO administrative rights. Some bureau ISSOs managed to keep all of
    their administrative rights, while others retained about half of their former rights.
    Some bureaus said that they did not have the administrative privileges to do the out-
    of-scope work for which they were responsible and instead had to get the assistance
    of IRM.

        OIG believes that the lack of clarity over ISSO responsibilities, combined with
    the inconsistent manner in which responsibilities have been taken wholly or in part
    from consolidated bureaus, has created frustration and delays for ISSOs and end
    users. (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)
    (b) (2)(b) (2)(b) (2)(b) (2)(b) (2)(b) (2)             IRM ofﬁcials told OIG that
    IRM was planning to hire a full-time ISSO to perform ISSO duties for consolidated
    bureaus, with bureau ISSOs still responsible for duties for mission-speciﬁc applica-
    tions.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   23 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                    Recommendation 4: OIG recommends that the Chief Information Ofﬁcer
                    clarify information systems security ofﬁcer responsibilities and duties between
                    consolidated bureaus and the Bureau of Information Resource Management
                    and apply these standards consistently across all bureaus.



                Management Response

                    In its response, CIO concurred with the recommendation and outlined the ac-
                tions it had taken to clarify ISSO responsibilities and duties and deﬁne roles and
                responsibilities between consolidated bureaus and IRM. The actions being taken by
                IRM sufﬁciently address the intent of the recommendation. Therefore, OIG consid-
                ers the recommendation resolved, pending further action.

                Communication Issues

                    Although the IT Consolidation PMO made signiﬁcant efforts in communicat-
                ing information about the IT Consolidation to stakeholders during the consolida-
                tion process, OIG nonetheless was repeatedly told about communication problems
                between IRM and its customers that have hindered acceptance of the consolidation
                effort. For example, some bureaus said that they were not being notiﬁed when equip-
                ment updates or repairs were to occur, such as when a security update for mobile
                computing devices was downloaded without prior notiﬁcation. This led to equip-
                ment not working for bureau staff and numerous calls to the IRM helpdesk to report
                the problem. Another incident occurred when ofﬁce automation software appeared
                on the classiﬁed network without any warning from IRM, which caused multiple
                user errors and prevented access to the network for several days while the problems
                were being ﬁxed. Other employees reported instances of changes being made to the
                network without adequate vetting with the bureaus, such as policy changes affecting
                access accounts. OIG was also told about the lack of professionalism shown in the
                way IRM has handled the IT Consolidation Project. One bureau reported that IRM
                seemed to be emphasizing to bureaus that “it is our way or the highway,” with bureau
                managers being given little, if any, ﬂexibility in implementing the consolidation ef-
                fort.




24 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



             Personnel in several bureaus said that there was an information disconnect
    between their Customer Service Advisory Forum (CSAF) representatives and bureau
    executive directors regarding the IT Consolidation. At the time of the OIG review,
    all bureau executives were not attending monthly CSAF meetings with the CIO to
    discuss their speciﬁc bureau issues regarding consolidation. Instead, a bureau repre-
    sentative was selected to represent the views of two or more bureaus. This required
    a signiﬁcant level of communication between bureau executives and their CSAF
    representative. Also during the OIG review, bureau executive directors were report-
    ing that information from CSAF and IRM was being presented at the management
    level rather than from a user’s perspective. In addition, information was not reach-
    ing the individuals who required it and whose responsibilities were affected by the
    information. OIG believes that having a more deﬁned process to share information
    among bureau executive directors and CSAF representatives may alleviate confusion
    and misunderstanding.

        Recommendation 5: OIG recommends that the Chief Information Ofﬁ-
        cer, in coordination with Customer Service Advisory Forum representatives,
        develop and disseminate an established process to obtain bureau suggestions
        and issues on the Information Technology Consolidation Project, as well as to
        appropriately debrief bureau executives they represent on the consolidation
        process.



    Management Response

         In its response, the CIO agreed that “bureau input and information ﬂows are
    critical,” that the CSAF “provides a vital link between customers and IRM,” and that
    “active bureau participation is encouraged.” IRM then described actions it has taken
    to enable transparency of the consolidation initiative but stated that members “must
    communicate and ﬁlter this information to their respective bureaus.”

        The CSAF is an effective platform for discussing IT Consolidation progress and
    issues. However, as stated in the report, having bureau representatives rather than
    bureau executive directors attend the meetings has led to confusion and misunder-
    standings about the consolidation effort. Therefore, a better deﬁned process for
    sharing information from these meetings with bureau executives and IT staff would
    be beneﬁcial. With implementation of such a process, the intent of the recommen-
    dation will be met. OIG will consider the recommendation resolved, pending further
    action.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   25 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED



                VIP Service

                    The OIG team also heard frustrations regarding the VIP program, which was
                designed to prioritize service to senior-level ofﬁcials, including Assistant Secretaries,
                executive directors, and special envoy personnel. Personnel in several bureaus ex-
                pressed dissatisfaction with the IT Consolidation Project, noting that it had created
                more work for the bureau IT staff because VIPs asked for help directly from the
                staff rather than from the ITSC because of poor service from IRM. Bureau ofﬁcials
                also reported that the VIP prioritization process was not working well. For example,
                a request for a hard drive to support one of the President’s special envoys was placed
                with IRM technicians. However, the request took 2 days to be addressed, while VIPs
                should have been the top priority for the helpdesk. During OIG’s evaluation, the
                CSO made changes in its notiﬁcation of VIPs within their tracking process to ad-
                dress these issues.

                Inventory

                    IRM had not redeﬁned its process to manage IT inventory for consolidated
                bureaus. At the time of OIG’s review, bureau ofﬁcials and IRM technicians had to
                collaborate to ensure that an adequate inventory was maintained and updated in
                accordance with regulations in the Foreign Affairs Manual (FAM) and the Foreign
                Affairs Handbook (FAH). Bureau ofﬁcials expressed frustration about the lack of
                accountability for inventory control because most equipment was moved by IRM
                technicians who might not always inform the bureau custodial ofﬁcer of the equip-
                ment’s removal, replacement, or relocation.

                    The inventory management process varied among bureaus. One bureau had
                developed its own notiﬁcation for IRM technicians to follow for inventory control,
                while another bureau was requesting IRM technicians to complete a form indicating
                the locations of equipment that had been moved.

                    The Under Secretary for Management issued a memorandum in April 2009 stat-
                ing that bureau ofﬁcials are responsible for reconciling their inventory for 2009 and
                2010 reporting periods. IRM was collaborating with the Bureau of Administration
                to identify an automated tool to help manage inventory. IRM also created an internal
                working group to develop a process for managing inventory. The working group, led
                by DSD staff, would also be responsible for conducting the inventory for the consol-
                idated bureaus once the responsibility was transferred to IRM. The need for revised
                IT asset management policy to address this inventory management issue is addressed
                in the resulting recommendation in the section “Policy Changes” in this report.



26 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



    IRM Actions to Address Bureau Concerns

        IRM has taken actions to address bureaus’ concerns regarding poor customer
    service. One step taken was the expansion of discussion at CSAF meetings. The
    CSAF offers a forum for IT Consolidation stakeholders to provide their experience,
    insight, and feedback during the planning and implementation of the IT Consolida-
    tion initiative and after consolidation operations have been initiated. According to
    IRM, the primary goal of the CSAF is to ensure that IT Consolidation stakeholders,
    including service providers and business users, have input into and provide guidance
    throughout the consolidation process on their requirements and preferences. The
    CSAF Charter, dated October 2007, states that the CSAF ensures three aspects:

          (1) Involvement – The CSAF is the forum used to bring the user community,
          business process owners, and service providers directly into the IT consolidation
          process; (2) Guidance – Through the CSAF, the forum will utilize input from
          stakeholders and users to drive IT consolidation by establishing priorities and
          business requirements; and (3) Communication – The CSAF will increase the
          quality of communications between the IT consolidation stakeholders and its
          designers.

         IRM also created the IT Mart in January 2009 to be a one-stop shop located cen-
    trally within the Department to handle service requests such as user accounts, FOBs,
    mobile computing devices, and laptops. Previously, issues were handled from three
    different locations or within the consolidating bureau. The IT Mart has proved to
    be a positive step toward providing assistance in one location central to Department
    employees, combined with the ability to handle walk-in customers.

        Other actions taken to improve customer service and communication included
    periodic electronic newsletters to update stakeholders on the Project’s progress, a
    dedicated IT Consolidation Web site, and town hall meetings. These forums allowed
    stakeholders the ability to voice their concerns and to learn of the latest IT Project
    developments. OIG commends these actions, but IRM needs to make additional ef-
    forts to improve customer satisfaction, as speciﬁed in the recommendations con-
    tained in this report.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   27 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                IMPLEMENTING THE IT CONSOLIDATION PROJECT
                    The Department did not fully comply with requirements outlined in Federal
                laws and regulations (the Clinger Cohen Act and OMB guidance) and agency policy
                (FAM and FAH) for effectively managing an IT project. Speciﬁcally, the IT Consoli-
                dation PMO did not develop business, user, system, and performance requirements
                as required by project management guidelines. In addition, the CIO did not make
                the necessary policy changes to address the transfer of ownership of pre-existing IT
                plans of action and milestones (POA&M), inventory control, ISSO responsibilities,
                and the handling of mission-speciﬁc and personnel-sensitive information. Also, the
                Department did not implement staff selection criteria for IT staff. The condensed
                2-year timeframe, as opposed to the suggested 4 to 5 years, imposed on the Depart-
                ment to complete consolidation for the participating bureaus and ofﬁces contributed
                to the lack of project requirements and inadequate implementation of the Project.
                As a result, the IT Consolidation PMO cannot ensure that the consolidation effort is
                and remains aligned with Department goals.

                Project Classiﬁcation

                     The IT Consolidation Project was initially categorized as a major project within
                the Department. Per OMB Circular A-11,8 Exhibits 53 and 3009 were completed by
                the IT Consolidation PMO, reﬂecting the Project’s status as a major capital invest-
                ment. OMB Circular A-1110 states that a major IT investment is a system or an acqui-
                sition requiring special management attention because it has

                      • 	 signiﬁcant importance to the mission or function of the agency, component
                          of an agency, or another organization;
                      • 	 obligations of more than $500,000 annually;
                      • 	 program or policy implications;
                      • 	 high executive visibility;
                      • 	 high development, operating, or maintenance costs;



                8
                  OMB Circular A-11, Preparation and Submission of Budget Estimates, August 7, 2009. 

                9
                  Per OMB Circular A-11, Exhibit 300 establishes policy for planning, budgeting, acquisition, 

                and management of Federal capital assets, and it provides instruction on budget justiﬁcation and 

                reporting requirements for major IT investments and for major non-IT capital assets. For IT, 

                Exhibit 53 is a companion to Exhibit 300. 

                10
                   OMB Circular A-11, part 7, section 300, “Planning, Budgeting, Acquisition, and Management 

                of Capital Assets.”



28 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED




           • 	 funding means other than direct appropriations; or
           • 	 agency capital planning and investment control process identifying it as a
               major IT project.
         The size and scope of the IT Consolidation Project met the requirements of
    a major IT investment project for the Department. The IT Consolidation Web
    site states that the Project will include a total of more than 24,000 unclassiﬁed and
    13,000 classiﬁed desktop computers and their ofﬁce automation products, e-mail
    for all domestic customers, a common network infrastructure supporting desktop
    operations, and all domestic IT helpdesks. In addition, the Project has high costs
    associated with it, including approximately $60 million spent through August 2009.
    Further, the Project has funding means other than direct appropriations and is con-
    sidered a high executive visibility effort within the Department. Even though the IT
    Consolidation Project met the criteria for a major project, OMB requested that the
    Department revise its Exhibits 300 and 53 for FY 2009 to roll up the consolidation
    effort under the IT Infrastructure Line of Business, thus rendering it a non-major
    project. As directed by OMB, Federal agencies are required to combine IT efforts
    under the IT Infrastructure line of business to facilitate the sharing of best practices
    and consolidate common practices. As requested by OMB, the Department revised
    its Exhibit 300 and 53 submissions.

        The IT Consolidation PMO has developed project management documentation
    for the consolidation effort. This includes a project charter, project scope statement,
    and a project management plan. A project charter was created and signed by the
    former CIO in September 2007 to formally authorize the Project. The charter pro-
    vides information on the Project description, vision, goals, responsible parties, and
    stages. Also, a project scope statement was developed to document what work was
    to be accomplished and what deliverables needed to be produced. Further, a project
    management plan was developed and approved by the CIO in March 2008. This plan
    contained documentation and processes that are required to manage, monitor, and
    control the IT Consolidation Project.

    Deﬁning Business, User, System and Performance
    Requirements

        The IT Consolidation PMO did not develop business, user, system, and perfor-
    mance requirements as required by project management guidelines. In accordance
    with OMB Circular A-130,11 agencies should ensure that programs or projects
    involving information systems proceed in a timely fashion toward agreed-upon

    11
         OMB Circular A-130, Management of Federal Information Resources, November 28, 2000.


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   29 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                milestones, which continue to deliver intended beneﬁts to the agency and custom-
                ers, meet user requirements, and identify and offer security protections. Further, the
                FAM (5 FAM 626.1, “Project Cycle”) requires project managers to deﬁne business,
                user, and system requirements during the project’s study period. In the case of the IT
                Consolidation, this would be the period before the ﬁrst bureau consolidation. Busi-
                ness requirements must be linked to the project’s mission and goals and should not
                be expressed in terms of solutions but as statements of need for speciﬁc functions.
                User requirements must be identiﬁed in terms of operational needs, schedule re-
                quirements, and interface requirements. The interests of the stakeholders (executive
                management, system administrators, and system end users) must be examined and
                prioritized to discern “needs” from “wants.” System requirements can be expressed
                as attributes, constraints, regulatory requirements, and/or speciﬁcations. System re-
                quirements must be traced to user requirements and must be veriﬁable.

                    The IT Consolidation PMO did not have documentation supporting its process
                of gathering, prioritizing, and selecting business, user, system, and performance re-
                quirements for the effort, in accordance with OMB and FAM requirements. Accord-
                ing to the IT Consolidation PMO, the Secretary’s July 2007 memorandum approving
                the consolidation initiative was used as deﬁning the Project’s requirements. This
                represented a deviation from accepted project management methodology, which
                required that documented requirements, constraints, and solutions be presented to
                management for a decision rather than an attempt be made to derive the require-
                ments from a decision memorandum after the fact. The IT Consolidation PMO did
                not undertake any further initiatives to gather requirements from stakeholders for
                the IT Consolidation effort, as required by OMB Circular A-130. OIG noted that the
                Secretary’s memorandum mentioned the timeframe for consolidating IT desktop ser-
                vices but did not include a detailed description of what requirements were identiﬁed
                and had been prioritized based on discussions with bureau management and IT staff.

                    Although the consolidation effort has already moved forward, the identiﬁcation
                of requirements would provide senior management and the IT Consolidation PMO
                with a mechanism for determining whether intended end results had been achieved
                for the consolidation effort. In addition, identiﬁed requirements would help support
                existing project management documentation and align the consolidation effort with
                deﬁned beneﬁts and goals. Because of the complexity and breadth of IT Consoli-
                dation, the identiﬁcation and prioritization of requirements and the use of such
                requirements in the development and revision of project documentation will ensure
                that the project is in keeping with Department goals.




30 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED




        Recommendations 6. OIG recommends that the Chief Information Ofﬁ-
        cer develop and disseminate detailed business, user, system, and performance
        requirements outlining the consolidation goals to be achieved for a successful
        endeavor.




        Recommendations 7. OIG recommends that the Chief Information Ofﬁcer
        revise project management documentation to be consistent with identiﬁed busi-
        ness, user, system, and performance requirements.



    Management Response

        In its response to Recommendation 6, the CIO stated that the Grant Thorn-
    ton study provided the detailed requirements and alternative analysis that resulted
    in the decision to consolidate and that IRM “has been managing” the performance
    measures and “continues to communicate” its progress. During its evaluation, OIG
    concluded that the study was performed before the consolidation effort began. The
    study did not detail or provide speciﬁc business, user, system, and performance
    requirements to measure consolidation progress and success. The CIO needs to
    document and share such requirements with all relevant parties to ensure that mea-
    surable goals are present to track completion and success of the Project. For Recom-
    mendation 7, the CIO agreed that project management documentation should be
    updated as appropriate. Based on the actions taken or anticipated, OIG considers
    Recommendations 6 and 7 resolved, pending further action.

    Policy Changes

        The IT Consolidation PMO did not adequately address policy planning required
    for the consolidation effort, including making and disseminating necessary policy
    changes via Department directives and the FAM. Speciﬁcally, revisions to address the
    transfer of ownership of IT POA&Ms, inventory control, ISSO responsibilities, and
    the handling of mission-speciﬁc and personnel-sensitive information had not been
    completed. OMB Circular A-123 provides guidance to agencies on improving the ac-
    countability and effectiveness of programs and operations by establishing, assessing,
    correcting, and reporting on internal controls. The guidance emphasizes the need for
    integrated and coordinated internal control assessments that synchronize all internal
    control-related activities.


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   31 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED



                    POA&Ms are created to address vulnerabilities identiﬁed through internal or
                external reviews. Bureau systems owners are responsible for addressing identiﬁed
                weaknesses via a POA&M process with established steps and deadlines. After bu-
                reaus consolidate IT services with IRM, the responsibility and ownership of IT-re-
                lated POA&Ms will be transferred from the bureau to the CIO for resolution. At the
                time of OIG’s evaluation, the Department’s POA&M database contained more than
                2,700 entries for various vulnerabilities, including software applications, local area
                networks, and assessment reports. A policy or procedure addressing who is responsi-
                ble for managing POA&Ms after consolidation had not been developed by the CIO.
                OIG was informed by the IT Consolidation PMO that IRM’s Ofﬁce of Information
                Assurance was developing POA&M policy; however, at the time of OIG’s evalua-
                tion, no policy or procedure had been ﬁnalized and therefore had not been dissemi-
                nated to bureau executives and IT staff.

                    Changes to inventory management policy as a result of IT Consolidation have
                also not been revised. Prior to consolidation, bureau executive directors (serving as
                accountable ofﬁcers) were responsible for accounting for and inventorying their IT
                assets. After consolidation, bureaus and IRM were required to work collectively to
                ensure that inventory management was performed accurately and effectively. How-
                ever, confusion began to surface as consolidated bureaus and IRM handled IT issues
                depending on whether services were in-scope or out-of-scope. The Under Secre-
                tary for Management issued a memorandum in April 2009 stating that IRM and the
                Bureau of Administration were working together to address the process of manag-
                ing and accounting for desktop computer and printer inventory. However, in the
                meantime, bureaus were responsible for keeping inventories of IT hardware that was
                not under their control. Other than the memorandum, no formal policy has been
                generated to ensure that bureau staff and IRM are handling inventory management
                adequately to prevent potential misplacement or loss of equipment.

                    Policies addressing the handling of ISSO responsibilities and duties after con-
                solidation have not been revised. The division of duties between bureau IT staff
                and IRM had not been clariﬁed, and in some cases, limited access was provided to
                bureaus to handle required tasks.

                    Further, policy addressing the maintenance and storage of mission-related and
                personnel-sensitive information within the Enterprise Server Operations Center
                (ESOC) also had not been formulated. The storage and viewing of mission or user-
                sensitive information stored in ESOC had not been codiﬁed. With the potential for
                bureau mission-sensitive information residing on e-mails and resting in user data
                libraries located in ESOC, boundaries and limitations must be established to ensure
                that only those IRM individuals with a “need to know” have access.


32 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED





          Recommendation 8. OIG recommends that the Chief Information Ofﬁcer
          revise and/or create policy through Department of State directives and the For-
          eign Affairs Manual to reﬂect information management changes attributable to
          the Information Technology Consolidation Project. These policies should
          address, at a minimum, the handling of information technology plans of action
          and milestones transferred from consolidated bureaus, information technology
          asset management, information systems security ofﬁcer responsibilities, and the
          proper handling of mission-speciﬁc information stored on Department net-
          works.




    Management Response and OIG Reply

         In its response, the CIO concurred with the recommendation and stated that
    it had directed the FAM to be updated to reﬂect information management changes
    attributable to the IT Consolidation Project. Based on the response, OIG considers
    the recommendation resolved, pending further action.

    Staff Selection Criteria

        The Department did not develop selection criteria for IT staff transitioning
    during the consolidation effort. The Ofﬁce of Personnel Management requires all
    Federal agencies to reassign all Computer Specialist positions to the new Information
    Technology Specialist positions within their area of specialty.12 The Department’s
    Bureau of Human Resources provides guidance to the bureaus on the implementa-
    tion of these new requirements.13 However, the bureaus implemented the require-
    ments only partially, which resulted in IT Specialists not having a speciﬁc functional
    description. According to the Department, IRM ofﬁcials did not have the control to
    determine which IT personnel would be reassigned to their helpdesk support as part
    of the consolidation. This led to personnel who did not have the appropriate func-
    tional code to perform required IT support being transferred to IRM’s helpdesk to
    provide IT services to consolidated bureaus.




    12
       Job Family Standard for Administrative Work in the Information Technology Group, issued in
    May 2001, with subsequent revisions issued in August 2003 and September 2008.
    13
       Memorandum from HR/CSP to Executive Directors, “Implementing the New IT Classiﬁca-
    tion Standard,” issued in September 2001.


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   33 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED



                    Based on its review of personnel actions and position descriptions of 25 trans-
                ferred Civil Service IT positions to IRM as part of the consolidation effort, OIG
                found that 14 positions did not have specialty functional descriptions. For example,
                one consolidated bureau transferred an administrative employee and another trans-
                ferred a policy and planning IT specialist to IRM to be part of their Tier 1 IT
                helpdesk that responded to and resolved trouble ticket calls. Actions such as these
                have resulted in complaints from the bureaus and the IT Consolidation PMO about
                personnel providing customer service who do not have the technical qualiﬁcations
                to be in that position. Once consolidation is completed, approximately 75 percent of
                the reported Department Civil Service IT specialists will have been impacted by the
                effort. With the Department not fully implementing specialty functional descriptions
                for IT specialists, having personnel who are not qualiﬁed provide customer support
                could adversely impact the Department’s operations.



                    Recommendation 9. OIG recommends that the Chief Information Ofﬁcer,
                    in coordination with the Chief Human Capital Ofﬁcer, ensure that personnel
                    transferred to the Bureau of Information Resource Management as part of the
                    Information Technology Consolidation Project have been assigned appropriate
                    specialty functional descriptions for performing information technology func-
                    tions.



                Management Response

                     In its response, the CIO stated that it believed the recommendation as written
                in the draft report was “broader” than the IT Consolidation Project and therefore
                should be eliminated from the report. OIG agrees with the rationale presented in
                the response but believes that assigning specialty functional codes for those individu-
                als transferred to IRM is critical to ensure that those employees have adequate IT
                knowledge and skills to provide customer support. As such, OIG has revised the rec-
                ommendation to be more applicable to the IT Consolidation Project, and the CIO is
                requested to respond to the new recommendation.




34 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



    IT CONSOLIDATION COSTS
        One of the original objectives of the IT Consolidation Project was to reduce
    bureau costs for desktop support services and systems maintenance. However,
    the Department did not have actual or comparative cost information to determine
    whether consolidating services actually resulted in a reduction in bureau costs. The
    inconsistent manner in which bureaus accounted for IT services costs was one ele-
    ment hindering IRM’s ability to make a comparative cost analysis. The limited cost
    analysis performed prior to bureau consolidation also contributed to the inability to
    make a determination. In addition, greater transparency and communication between
    the IT Consolidation PMO and the bureaus on cost issues could signiﬁcantly im-
    prove the bureaus’ acceptance of the Department’s IT Consolidation. The lack of
    the bureaus’ understanding of costs has led ofﬁcials and staff to question the costs
    for consolidation and has negatively impacted overall support for and commitment
    to the Consolidation Project.

    Actual and Comparable Cost Information

        The Department did not maintain actual and comparable cost information for IT
    services prior to consolidating under IRM. IRM was therefore unable to determine
    the IT costs for bureaus prior to consolidation. As a result, there were no baselines
    for comparing pre-consolidation and post-consolidation costs for the overall project.

        In an attempt to determine pre-consolidation costs, IRM requested RM’s assis-
    tance in gathering bureau costs for IT services to develop a cost estimate per desktop
    to be applied to consolidated bureaus. RM did not have the information readily avail-
    able, so it sent a spreadsheet to the bureaus requesting information on the popula-
    tion served, IT staff, and IT support expenses. RM ofﬁcials asked the bureaus only
    for total costs and did not break out costs for services that would be included in the
    consolidation. Further, bureaus did not have any in-scope and out-of-scope distinc-
    tions allowing the bureaus’ IT staff to estimate and budget for required IT services
    in a consistent manner. Therefore, RM ofﬁcials could not deﬁnitively answer ques-
    tions about what bureaus paid for in-scope and out-of-scope services.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   35 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED



                    Another factor impacting the inability to perform cost comparisons was having
                salaries paid from different funds. Before IT Consolidation, salaries for IT support
                employees for all D&CP bureaus were paid from the American Salaries Fund. After
                IT Consolidation, IRM became responsible for funding the salaries of the support
                personnel who transferred to IRM and thus were paid from the Working Capital
                Fund.14 In addition, bureaus did not consistently retain cost information for their
                pre-consolidation IT services, so no estimate could be applied to those services being
                provided by IRM.

                    OIG was also unable to determine from Department accounting data whether
                bureaus were paying more or less for IT services under consolidation. OIG at-
                tempted to independently verify bureau pre-consolidation and post-consolidation
                costs to determine whether cost savings had been realized. OIG identiﬁed all bureau
                IT-related Budget Object Classiﬁcation (BOC) codes and requested funding amounts
                under these BOCs for the Department’s 34 domestic bureaus and ofﬁces for FYs
                2006 to 2009. However, a thorough cost analysis could not be obtained for several
                reasons. First, bureaus had different mission-related goals and priorities with varying
                support needs and costs. In addition, bureaus allocated their budgets for IT services
                and support in an inconsistent manner, which resulted in the lack of a baseline for
                pre-consolidation costs.

                    OIG also identiﬁed one particular BOC code that was used by certain bureaus
                as a sort of “miscellaneous” account for the funding of both IT-related and non-IT-
                related items. As a result, it was difﬁcult to differentiate the substantial costs within
                this code for inclusion in bureau IT expenses. RM ofﬁcials could not conﬁrm that
                the code, which contained large-dollar funding amounts for certain bureaus, was for
                IT expenditures either in whole or in part.

                Cost Analyses Performed

                     The Department performed limited cost planning and analyses prior to initiating
                bureau consolidation. In accordance with OMB Circular A-130, agencies must pre-
                pare and update a beneﬁt cost analysis for each information system throughout its
                life cycle. In addition, in accordance with the FAH (5 FAH-5 H-600) and the FAM (5
                FAM 660, “Beneﬁt Cost Analysis”), beneﬁt cost analyses must be prepared for each
                new, modiﬁed, or fully integrated program or project prior to implementation. Also,
                all beneﬁt cost analyses must include alternatives that are operationally and techni-
                14
                  The Working Capital Fund provides a mechanism to charge users for services with cost con-
                sciousness as a primary objective. It also offers ﬂexibility with no-year funding and the ability to
                adjust stafﬁng as needed within affordability limitations. (“IRM IT Consolidation”
                <http://itconsolidation.a.state.gov>, accessed on Oct. 19, 2009.)


36 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



    cally feasible to satisfy objectives and consider both current and future costs and
    beneﬁts as stated in the FAH (5 FAH-5 H-620). Department ofﬁcials said that IT
    Consolidation was “rolled up” under IT Infrastructure Exhibit 300, which was pro-
    vided to OMB. The beneﬁt cost analysis for IT Consolidation complied with OMB
    Circular A-130 budget submission requirements; however, the submission was based
    on limited cost information, as more in-depth information was not available.

        In September 2006, the Department contracted with the consulting ﬁrm Grant
    Thornton to begin a business case analysis of IT Consolidation and its alternatives
    for IT services at the Department. Grant Thornton representatives collected and
    analyzed cost and workload data for desktop-managed services from the bureaus and
    ofﬁces under the Assistant Secretary for Management, including RM and the Under
    Secretary for Management; the Bureaus of Administration, Diplomatic Security, and
    Human Resources; the Ofﬁce of Medical Services; and the Foreign Service Institute.
    Data was requested, but was not received, from other bureaus and ofﬁces. From this
    limited information, Grant Thornton concluded that the data was representative of
    the Department-wide workload for domestic, unclassiﬁed desktop-managed services.
    As such, Grant Thornton extrapolated its sample data of 9,391 end-users across
    24,873 domestic, unclassiﬁed end-users Department-wide to develop its business
    case. Speciﬁcally, Grant Thornton compiled workload data from only seven bureaus
    and assumed that each of the remaining 27 bureaus in the Department had similar
    IT service requirements and setup.

        Because the Grant Thornton results were extracted from limited data, IRM
    attempted to determine the cost of IT services for bureaus prior to consolidation
    with assistance from RM and from several bureaus that agreed to share their cost
    data. However, the lack of cost information retained by bureaus and RM precluded
    a thorough analysis of pre-consolidation costs. With such limited cost information
    available, IRM then decided to use its cost model across all bureaus for IT services,
    much as the Grant Thornton analysis had done, even though it did not apply to all
    missions. IRM developed the IT Consolidation Cost Model Plan, dated December
    14, 2007, to document its cost for the Project, list the objectives of the consolida-
    tion effort, and describe the cost model process and approach. The IT Consolidation
    Cost Model Plan further outlines IRM’s cost model for the current and future state
    of IT Consolidation for in-scope services.15



    15
      According to IRM, in-scope services for the unclassiﬁed and classiﬁed networks include the
    IT Service Desk, Standard Desktop Services, IT Security Services, Enterprise Network Services,
    Mobile Computing Services, File Storage and Sharing Services, Messaging Services, and User
    Proﬁle Services.


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   37 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                    OIG found the IT Consolidation Cost Model Plan to be based on limited cost
                information. Rather than performing additional beneﬁt cost analyses, the IT Consoli-
                dation Cost Model Plan was based on IRM’s assumptions about bureau IT costs and
                the assessment of a small amount of cost data available. Instead of being charged a
                per-desktop cost based on individual circumstances, bureaus were being charged the
                same cost per desktop, even though bureaus are very dissimilar, that is, each bureau
                has a different mission, network management, workload requirements, and costs. As
                a result, bureaus were being charged a cost per desktop that might not be commen-
                surate with the support services they needed or provided.

                Cost Transparency and Communication

                    Bureau ofﬁcials expressed frustration regarding the lack of transparency on
                costs for IT Consolidation. Most of the frustration revolved around increasing cost
                estimates for the bureaus, which started at approximately $1,500 per desktop but
                then increased to $1,883 for reasons that were not known. Many ofﬁcials said that
                their bureaus were paying substantially more for desktop services post-consolidation.
                One ofﬁcial for a bureau not yet consolidated noted that the bureau was being asked
                to pay two or three times more than it was paying for service that was perhaps 60
                percent of the service it was receiving.

                    Other bureau ofﬁcials stated that they were being assessed “hidden fees.”
                Ofﬁcials said that bureaus already had remote sites, called “nodes,” as part of their
                networks but that since consolidation, the bureau has had to pay an additional
                $700,000 to IRM for those nodes. Similarly, ofﬁcials expressed concern over seem-
                ingly high maintenance charges for each connection to the networks and printers, al-
                though bureaus paid for their installation. Ofﬁcials also questioned why their respec-
                tive bureaus’ costs included paying for the IT network infrastructure, despite such
                costs already being part of IRM’s base funding prior to IT Consolidation. Those
                same ofﬁcials questioned why IRM was charging bureaus for both unclassiﬁed and
                classiﬁed network workstations, when only a switch separated the two environments.
                Bureau ofﬁcials stated that the added 10 percent contingency cost, which was built
                into the cost estimate per desktop, seemed excessively high—noting that a 1 percent
                contingency cost was more realistic. However, IRM stated that the cost was based on
                the desktop and not the user. Further, IRM stated that both unclassiﬁed and classi-
                ﬁed desktops required ﬁle and e-mail storage, helpdesk support, and hardware sup-
                port.




38 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED




        The OIG team could not independently validate anecdotal claims and concerns
    about cost issues expressed by bureau ofﬁcials. However, based on its review of the
    cost information provided, OIG determined that the cost per desktop calculation
    was unclear and that the costs had ﬂuctuated throughout the consolidation schedule.
    For example, IRM’s cost model initially projected a cost per desktop of $1,500. This
    was based on providing support for a service helpdesk, standard desktop services,
    and ﬁle and e-mail storage for 37,000 total desktops less the cost of government em-
    ployees’ salaries and beneﬁts. This estimate assumed a support staff to desktop ratio
    of 1:78 (approximately a 10 percent increase in stafﬁng efﬁciency) and a contractor
    to full-time employee labor mix of 77 percent contractors and 23 percent full-time
    employees.

        The $1,500 cost per desktop did not remain constant because IRM added and
    subtracted cost elements that produced new estimates. For example, a cost estimate
    for labor (contractors and full-time employees) and for non-labor costs was added
    that increased the cost per desktop to $1,693. IRM then decided that the cost per
    desktop did not include full-time employee costs and therefore adjusted it downward,
    bringing the $1,500 estimate to $1,350. Subsequently, IRM added a management
    reserve16 of 10 percent ($135) to the estimate, bringing the ﬁnal cost per desktop to
    $1,485 (rounded to $1,500). This cost model included the annual cost per desktop,
    including labor and non-labor costs for one workstation. Department ofﬁcials also
    provided other reasons as to why per-desktop costs did not remain constant: the
    per-desktop estimate did not include government employee labor costs, government
    employees determined to be “in-scope” were absorbed by IRM, and the perfor-
    mance-based contract that impacted the per-desktop costs was awarded later than
    anticipated.

        The cost model was subsequently adjusted upwards to approximately $1,883 per
    desktop, as expenses to provide the support proved to be higher than ﬁrst antici-
    pated. According to RM, bureaus consolidated in 2009 will not be assessed the
    $1,883 charge until 2010. Beyond 2009, all consolidated bureaus will include the per-
    workstation charge of $1,883 in their base funding level. The $1,883 charge will not
    change until FY 2011 at the earliest, as stated by RM ofﬁcials.

         The IT Consolidation PMO has made efforts to communicate with its stakehold-
    ers through numerous formats, including meetings and forums, an electronic news-
    letter, and a Web site dedicated to the project. According to IRM, the IT Cost Center



    16
      Per the IT Consolidation Cost Model Plan, the management reserve represents additional con-
    tractor support to minimize the risk of service as well as contingency support costs.


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   39 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                has briefed CSAF members, executive directors, and budget ofﬁcers on the costs
                comprising per-desktop charge. Along with various town hall and customer feedback
                meetings, to include meetings with bureau executive directors and regional executive
                directors, IRM has provided numerous opportunities for communication between
                IRM and consolidated bureaus. A Department ofﬁcial said that the PMO should be
                recognized for trying to communicate complicated cost and other issues to the con-
                solidating bureaus. The CIO also told OIG that she thought communication efforts
                were sufﬁcient. Bureau management, however, said that they believed more commu-
                nication and clarity were needed. Of the 16 consolidated bureaus, ofﬁcials from 10
                bureaus expressed concerns that IRM had not sufﬁciently explained how the cost per
                desktop was derived. Without a full understanding and clariﬁcation of cost matters, it
                will likely be difﬁcult to overcome bureau resistance to IT Consolidation.

                Future Cost Planning

                     The IT Consolidation cost estimates provided by IRM have changed throughout
                the course of consolidation, resulting in bureaus stating that they did not have suf-
                ﬁcient funds to pay for the IT Consolidation. For example, one bureau was charged
                $1.78 million for 946 workstations, but the bureau ofﬁcial said that it had only ap-
                proximately $600,000 available in bureau resources, resulting in a deﬁcit of $1.15 mil-
                lion. Another bureau was charged $2 million for 1,095 workstations, but the bureau
                ofﬁcial said that it had only approximately $300,000 available, leading to a deﬁcit
                of $1.7 million. Because of the unanticipated costs of the consolidation, bureaus
                claimed to not have sufﬁcient funds to pay for the consolidation in FY 2009. To as-
                sist, the bureaus were made “whole” by providing them with supplemental funding
                amounting to $6.8 million in FY 2009 based on approval from the Under Secretary
                for Management.

                     Bureau ofﬁcials expressed concerns that shortages in funding would affect their
                ability to provide those IT support services that have remained with the bureau.
                Some bureaus indicated that priority projects might be affected. Other bureaus indi-
                cated the need to hire additional staff to handle mission-speciﬁc responsibilities but
                were unable to do so because of insufﬁcient funds after providing IRM the funding
                requested. Because IRM had not provided sufﬁciently detailed information on costs
                per desktop and how bureau funding was being used to support operations, some
                bureaus were resisting the consolidation.




40 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED



         It is unclear how the Department will address shortages in bureau funding that
    occur in the future because IRM has not projected cost or shared information with
    bureaus on future costs for the operation and maintenance of desktop services.
    OIG reviewed a draft of the OMB IT Infrastructure Line of Business evaluation
    report, written by the Gartner Group, Inc., an IT research and advisory company.
    The report, which addresses IT infrastructure services performed by IRM and the
    Department, is very detailed and covers most of the services promoted by the IT
    Consolidation. The report provides information on costs, service levels, stafﬁng
    levels, productivity, cost gaps, and ﬁndings. While this information was being devel-
    oped under a separate contract parallel to the Grant Thornton study, the information
    could provide IRM and bureaus with cost analyses and information to assist in their
    future planning and management decision process.



        Recommendation 10. OIG recommends that the Chief Information Ofﬁcer
        share information with bureaus on the cost estimates per desktop for the Infor-
        mation Technology Consolidation Project. This information should show how
        the cost estimates are derived and how bureau funding is being used to support
        operations and include future projections for operation and maintenance of
        information technology services.



    Management Response

       In its response, the CIO stated that IRM had held “numerous meetings” with
    ofﬁcials regarding the cost per desktop, how the cost was derived, and how funding
    supported the operations and maintenance of IT services. IRM further stated that in
    December 2009, it will brief CSAF members on future per-desktop cost estimates.

         OIG acknowledges the attempts IRM has made to explain the cost per desktop
    and how bureau funding is being used to support operations to Department ofﬁ-
    cials. However, OIG was told, during its evaluation, of repeated instances of confu-
    sion regarding required consolidation funding, its use to support IT operations, and
    future projections. Therefore, IRM should continue its efforts to explain the costs
    associated with the consolidation effort and expand its efforts beyond CSAF mem-
    bers to bureau executives and IT staff. OIG considers the recommendation resolved,
    pending further action.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   41 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED





42 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED





                                   RECOMMENDATIONS

    Recommendation 1. OIG recommends that the Chief Information Ofﬁcer review
      and revise performance metrics contained within the helpdesk service contracts
      to ensure that measures are put in place to address customer complaints on time-
      liness and resolution of issues.

    Recommendation 2. OIG recommends that the Chief Information Ofﬁcer revise
      the training program for helpdesk technicians to ensure that all individuals have
      consistent knowledge and skills to provide customer support.

    Recommendation 3. OIG recommends that the Chief Information Ofﬁcer
      approve the clariﬁed in-scope and out-of-scope service areas and disseminate this
      information to all consolidated bureaus.

    Recommendation 4. OIG recommends that the Chief Information Ofﬁcer clarify
      information systems security ofﬁcer responsibilities and duties between consoli-
      dated bureaus and the Bureau of Information Resource Management and apply
      these standards consistently across all bureaus.

    Recommendation 5. OIG recommends that the Chief Information Ofﬁcer, in
      coordination with Customer Service Advisory Forum representatives, develop
      and disseminate an established process to obtain bureau suggestions and issues
      on the Information Technology Consolidation Project, as well as to appropriately
      debrief bureau executives they represent on the consolidation process.

    Recommendations 6. OIG recommends that the Chief Information Ofﬁcer devel-
      op and disseminate detailed business, user, system, and performance requirements
      outlining the consolidation goals to be achieved for a successful endeavor.

    Recommendation 7. OIG recommends that the Chief Information Ofﬁcer revise
      project management documentation to be consistent with identiﬁed business,
      user, system, and performance requirements.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   43 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                Recommendation 8. OIG recommends that the Chief Information Ofﬁcer revise
                  and/or create policy through Department of State directives and the Foreign Af-
                  fairs Manual to reﬂect information management changes attributable to the In-
                  formation Technology Consolidation Project. These policies should address, at a
                  minimum, the handling of information technology plans of action and milestones
                  transferred from consolidated bureaus, information technology asset manage-
                  ment, information systems security ofﬁcer responsibilities, and the proper han-
                  dling of mission-speciﬁc information stored on Department networks.

                Recommendation 9. OIG recommends that the Chief Information Ofﬁcer, in
                  coordination with the Chief Human Capital Ofﬁcer, ensure that personnel trans-
                  ferred to the Bureau of Information Resource Management as part of the Infor-
                  mation Technology Consolidation Project have been assigned appropriate spe-
                  cialty functional descriptions for performing information technology functions.

                Recommendation 10. OIG recommends that the Chief Information Ofﬁcer share
                  information with bureaus on the cost estimates per desktop for the Information
                  Technology Consolidation Project. This information should show how the cost
                  estimates are derived and how bureau funding is being used to support operations
                  and include future projections for operation and maintenance of information
                  technology services.




44 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED





                                         ABBREVIATIONS

    BOC                                Budget Object Classiﬁcation
    CIO                                Chief Information Ofﬁcer
    CSAF                               Customer Service Advisory Forum
    CSO                                Customer Service Ofﬁce
    Department                         Department of State
    D&CP                               Diplomatic and Consular Programs
    DSD                                Desktop Services Division
    ESOC                               Enterprise Server Operations Center
    FAH                                Foreign Affairs Handbook
    FAM                                Foreign Affairs Manual
    IRM                                Bureau of Information Resource Management
    ISSO                               information systems security ofﬁcer
    IT                                 Information technology
    ITSC                               IT Service Center
    OIG                                Ofﬁce of Inspector General
    OMB                                Ofﬁce of Management and Budget
    OSD                                Operational Support Division
    PMO                                Program Management Ofﬁce
    POA&M                              plan of action and milestones
    RM                                 Bureau of Resource Management




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   45 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED





46 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED





                                               APPENDIX A


                                       SCOPE AND METHODOLOGY

        To perform the evaluation of the Information Technology (IT) Consolidation
    Project at the Department of State, the Ofﬁce of Inspector General (OIG) re-
    searched federal laws, regulations, guidance, and industry best practices for project
    management, beneﬁt cost analyses, and customer service. OIG also reviewed prior
    audit and inspection reports to identify prior issues and follow-up matters.

        OIG reviewed documentation provided by Department ofﬁcials, including
    customer service surveys, project management documentation, cost spreadsheets, IT
    Consolidation progress reports, and minutes of meetings between executive direc-
    tors and senior Department management. The team obtained and reviewed systems
    documentation, including planning documents, documentation of in-scope and
    out-of-scope IT services, risk assessments, security-level documentation, stafﬁng
    patterns, enterprise architecture documents, Department conﬁguration guidelines,
    performance measures, and plans of action and milestones documentation. Further,
    OIG reviewed, for each bureau for various ﬁscal years, beneﬁt cost analyses docu-
    mentation; Exhibits 300, A-11, A-76; and Bureau of Information Resource Manage-
    ment (IRM) IT budget documentation. OIG also reviewed cost model documenta-
    tion created by the Department. Project methodologies, contract documentation, and
    material available on the IT Program Management Ofﬁce (PMO) Web site were also
    reviewed.

        OIG interviewed ofﬁcials from various bureaus and ofﬁces to obtain insight on
    the quality of customer service and costs incurred prior to and after IT Consolida-
    tion (the bureaus and ofﬁces are listed in Appendix B). Speciﬁcally, OIG met with
    ofﬁcials of 16 consolidated bureaus and ofﬁces at the time of the evaluation. Ques-
    tions asked of ofﬁcials included their IT consolidation experience, satisfaction, and
    any issues that had not been addressed. Additionally, OIG met with ofﬁcials from
    seven bureaus and ofﬁces in pre-consolidation phases to discuss their interaction
    with IRM staff, as well as their concerns and experiences. OIG did not include OIG’s
    Executive Ofﬁce in this evaluation.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   47 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                    OIG interviewed ofﬁcials in the Bureaus of Administration and Resource
                Management to discuss their respective roles and responsibilities for implementing
                and managing the IT Consolidation Program. These discussions included questions
                on the initial conception of the IT Consolidation effort, planning exercises, studies
                performed, and cost analyses for the bureaus and IRM. OIG also met with IRM’s
                Desktop Support Division, Customer Liaison Staff, and the Process Improvement
                Division to obtain insight on customer service policies, procedures, surveys, com-
                munication, and areas of improvement. The team attended several Customer Service
                Advisory Forum (CSAF) meetings chaired by the Chief Information Ofﬁcer (CIO).
                The CSAF meetings, which included representation from each functional and region-
                al bureau, focused on providing progress reports on the IT Consolidation effort.

                    OIG also met with ofﬁcials from the Ofﬁce of Management Policy, Rightsizing,
                and Innovation to determine their oversight responsibilities for the IT Consolida-
                tion effort. OIG met with the IT Consolidation PMO to obtain information on the
                effort. This information included project management methodology and planning,
                security controls being used, consolidation milestones, project complications, and
                coordination and communication with bureau management and senior Department
                ofﬁcials.

                     OIG sent a survey questionnaire with speciﬁc questions on customer service to
                executive directors, IT staff, and end users of all consolidated bureaus and ofﬁces
                to solicit their views on IT services both prior to and after the consolidation. Ques-
                tions in the survey highlighted quality and timeliness of service, skills and knowledge
                of the technicians, and clarity of services to be provided by the bureaus and IRM.
                OIG received more than 700 responses to the survey. Further, the team conducted
                site visits at IRM’s customer service call centers located at Main State and Beltsville,
                Maryland, as well as the IT Mart, which is the walk-in customer support location at
                headquarters.

                   OIG’s Ofﬁce of Audits conducted its ﬁeldwork and analysis for this evaluation
                from February through August 2009.




48 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED





                                                 APPENDIX B


                  BUREAUS AND OFFICES VISITED DURING EVALUATION

        During its evaluation of the Information Technology Consolidation Project at
    the Department of State, the Ofﬁce of Inspector General visited the following De-
    partment bureaus and ofﬁces:

          Consolidated Bureaus

          Bureau of Near Eastern Affairs, Executive Ofﬁce
          Bureau of Overseas Building Operations, Executive Ofﬁce
          Ofﬁce of Legal Advisor, Executive Ofﬁce
          Bureau of Population, Refugees, and Migration, Executive Ofﬁce
          Bureau of Resource Management, Executive Ofﬁce
          Bureau of Legislative Affairs, Executive Ofﬁce (via e-mail)
          Bureau of Oceans and International Environmental and Scientiﬁc Affairs,
             Executive Ofﬁce
          Bureau of Western Hemisphere Affairs, Executive Ofﬁce
          Bureau of Economic, Energy, and Business Affairs, Executive Ofﬁce
          Ofﬁce of Medical Services, Executive Ofﬁce
          Bureau of Administration, Executive Ofﬁce, Information Resource Management
          Bureau of Administration, Ofﬁce of Global Information Services
          Bureau of European and Eurasian Affairs/International Organization Affairs,
             Executive Ofﬁce
          Bureau of East Asian and Paciﬁc Affairs, Executive Ofﬁce
          Bureau of African Affairs, Executive Ofﬁce
          Ofﬁce of the Director of U.S. Foreign Assistance, Executive Ofﬁce

          Bureaus Not Consolidated as of August 31, 2009

          Bureau of Foreign Services Institute, Executive Ofﬁce
          Bureau of Educational and Cultural Affairs/ International Information Program,
             Executive Ofﬁce
          Bureau of Diplomatic Security, Executive Ofﬁce
          Bureau of Human Resources, Executive Ofﬁce


OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010   49 .


                                                  UNCLASSIFIED
                                                     UNCLASSIFIED




                      Bureau of Arms Control and International Security Affairs, Executive Ofﬁce
                      Bureau of Public Affairs, Executive Ofﬁce
                      Bureau of Consular Affairs, Executive Ofﬁce

                      Department Ofﬁces

                      Under Secretary for Management
                      Bureau of Resource Management, State Programs, Operations and Budget
                      IT Consolidation Program Ofﬁce
                      Bureau of Administration
                      Ofﬁce of Management Policy, Rightsizing, and Innovation
                      Bureau of Information Resource Management, Operations, Customer Service
                         Ofﬁce
                      Bureau of Information Resource Management, Operations, Customer Service
                         Ofﬁce, Desktop Support Division
                      Bureau of Information Resource Management, Operations, Customer Service
                         Ofﬁce, Customer Liaison Staff
                      Bureau of Information Resource Management, Operations, Customer Service
                         Ofﬁce, Process Improvement Division
                      IT Consolidation Customer Service Advisory Forum




50 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                  UNCLASSIFIED





                                               APPENDIX C
                                                                                  bled Stotn Department of·S totr,

                                                                                CI"~fll1f"'-" ()ffIur
                                                                                ("f<" - " ••1UI,,,tx:1II..,,,,,._,,,
                                                                                W4J/IIIJllkJlI, D.C }()$l/1.(;JII

                                                                               December I , 2009


         ME.MORAND UM

         TO:              010. Mr. Hamid W. Gdse l. D"!'uty Inspec!or Genc1a1

         FRO~4:
         . UlUECT:
                          IRM - SusiUI wa         4
                          o.aft Report on · •• Iu.l i()tl oftl", lnformatio n , "c:dmology Consolidat ion i'roj«:t
                                                or
                          al tbo Departm""l S..... IAUDIIT· IO·ll)


         IRM aw"",ialolS tbe o pponunity to (omm,.,.! <)8 the Ofllce oflnspec-lorGcneral (0 10)
         £""JIKJ,ion () 1M In!ormUlfon Tecitt1(JfoKY CIJflso/ida'io~ Prvje'·' til 'h~ l)e-pa,mem of SIOJ~
         i Report Nmnber A DIIT· IO·II), We recognize the be l ofefIon associ ted with th i, review
                                                                             "r
         and we believe thi",roc ' eOflltibutos 10 OUT s bart<! !,'.,.I ovpporting fully 'he Dopartment"s
         mission ond petronncl.

         W. recolln iU also. ,h.1 ,he r<vit"W .c>uld not fu Uy """ress all a.5j>CCls of tho progrwn,
         S~ifiCAlly. tho evaluation docS 1104 iippeat to oddr.... tho significance ohh• .,ro@l'3'o' S
         contribution toWBTII e-nba:oc.::ing the Depiillr1.mern',s IT ~urity pasture. The Dcpmmeru
         e 13bJished its Sito Risk Scoring Pmgrum. a pr01lr3nl f . O1lnb.cd by tbo .dminlma,iOll and
         private c'or as 3 modo! for o.ru:r agonc;es in the Federal govemrnrnt , Also, this program
         recei.ed the :-ialiooai Security AgollCy's Ro wlett AWilrd for otganizaJional cxcellence among
         s«urit)' programs in 200').

         This program w,u us.:d 'b,' IR M to _,npro"e security during conso1id~utoi:'l ~ As 3 result or the
         overall risk ",ennS program and tbe e oru by t e Desklop Suppan Divisio n tD • D) to ~y~
         ri It a[ coosoiidlltcd ,ilco;, d""ktop-roloted risk droppcd signili.""tly from July 200S throusJt July
         2009. Thi$ risll reduc.tion providts dear and compcllins evidence tbat 1RM i wo~rlg
         effccti..'cly thrnuab consoti:datio n tu imp rove lhe-SOCW'it)' po!lEure oftb: Dc:par1ment :signifi .Uy.

         IT       nsolida!ion h.s also provided 1R..\1 the opportunity 10 iMprove 'he Departmmt·.domestic
         I infr3$11\1etutc, AJI consolidated uscrs are JOlted ema il Slo raS" ooxes of >OOMB. a su~aDt iaJ
         1'K:l'e3! c: for m OSl USC-B. In addition. crna.il and B1 c:k:Re::try ~rvi ces for consolidilted USCT'lf. biJ.\o-.e
         been ccntraJized. cK..alinge:mc:ienc-ies in email manag.C.mc-nt and standwdlzing stor.a;.e and
         sec-uri. pr.il¢tjces MiS: me ~merprisc as well 7x.24 S lIpp)T\. Thr('JU8.h lT Consolidation. IRM
         lta..i also imp Lcmcntro a centralized torae,e "tee S CI\\'Ort (SAN) solution for sloriAK ~t fil es
         centrall y within tb. Entetptise Server Operations Cent er (ESOq. As user files are m igrated to
         the: 'AN, ntM is Ilble 10 cenlt"3l1y In.l\IIlle the data slores, indud ing oond«,inll regll iar back-up
         of the data, IRM ,s also institutina • new Disas' er Reeo,'cry I CQTltin uity of Operations Plan




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                  UNCLASSIFIED
                                                                                                                                     -
                                                                                                                                     51 .
                                                           UNCLASSIFIED





                   (ORlCOOP ) for pnK •• ,il\g Ihi. d.!a. • "'l'".Mily llmt " ',", not possible      ""m '            pl.",..".,,,,"
                                                                                                                       of
                   con....li:a.l r,1e '."'"g'" AddJL1"mlll)'. lbo b"pIc::"'""lilll .. ..fit •• RttlOOdy Ii SM'!.'"
                   M3I\IIgaD,ml (nSM) .)'SI.m provides ~,..,.~ ., sibili,,- inIAl ,ho inriden'. ""d ..... ia: ""l'""'"
                   brouy,t to the rrs.:",i •• Cenl.r, Th. Remedy lTSM oil' will' . • od ,·~g."r .... y
                   m 'i,"" [T "-1~ ~"""." .. w~hlo 11tJ.'o'. iixu.b1g "" doe Ide",ifiClMIoo, d.'~IQl"fI>tftl, OIId
                   impro''''''''nI of iI. tT "'p,"," pto>ee • ..-s 91> lb.t lR!Y1may 1Iffi.. me t til. IT ""cds of it>
                   CWl~1S a.;·mu ta c, Thi' illCren5C ill ~iJlI!biliCi"li"., IRM ..I!d (he E1.~. ~ .. co""",1
                   oV<r1il!kc' [["" ing, ;n~ !r. · PII"'f'oeY, JliilIdi!t'dl7J!'d prooc55C fir..:! l OOIs. aDd l!mIlcr
                   ..pooi.1I ~pobi l iri••.

                   Md i' iOlully. i1 i. IRM', pu.lll.~ iii .. [t~ ethical ~&!.~fIll~ of IRM'Hwtcm ~' icedlo., oot
                   rdlcct 110. distillCll~rKI to"wd impro>~ KIVi<'l' !!rnI1be ' ~!!I'IIrl~ ru;lW ;" ~~ lU .;00,,:'
                   "llnllmJOil iRlprov<!meaL lRM Iw ne''Cf batn mort fl1etJ!Kd 00 CU~J 5¢rvicc, rr SeYl'lrej
                   OnUm wclli live 00 ():cembcr 7, UIO~. jm" 'idiIlg ~~_1111 odditio...l wily I<l n;q t
                   !<eMCC$ rn;m IlIfI.o1. Th" ",,,,.ion gflt;" IT Con",~ ldilliCni M""'r S<!tvillc Lt>'tl AgJtltmtn'
                   (SLi\) v3, 5<bed..lod for N.least! cady next ~'ClIJ , is IOOIe fiJ<:oJ5¢d OD ~lISI_ ..:rvil.-e i!nd
                   Q 'iJ)iJo,  ''' aeI
                                     rnohll;"n ti""", to i.... " "'PO~' II1""'Sh ,be IT Sm'i"" C.,.,« 8I1d IT S~l'Ylc~
                   O.~ln". Flf••11 '. IRM klStt fiB anwked impro\'tm~m iLl mmi~g su. specifIC mClL1wcs for
                   l ~i<l'B'5 .nd ~           ""'I""'" """ OIl ~. of appr-rndmoLely 10% I. campll"""" '-..itII,1>o
                   ....se1 SLA "'.., [Iv," ~m •• ,
                   w. appo'td.L~ OlG ', ""gooitioo that lRM f•• od 'he ohalboiC ·of wod;i~B rr_ .0 i.,""1JlI'~
                   boldine OrbORaYi.rOfllMlion, Th. b............. '" ~ ~I1i f""" i~ ~n,rvidi"8 "rYiee, iii [t.aCkJ~g
                   ,00 ~rti"8       CO,,,,
                                         fir ", "",,"ito,inS ...totIl ......1.lact!olL Today,           haw,,,,,,,
                                                                                                  oornolioblion Ius
                   CD&bk-d "-YIIl¢< 1".,,\0 to be "lOotitorcd ~1OO.1)' BOd eVillUlod .goins4 <!OW"'..".., ""'ire
                   Iovol. 1 M' ~ro""" 10 1Ih. wld inll "Fil. 1 fund • ..,ura                   'il.&L""''' . . .,
                                                                                               captured, ll'Id<ed, OIId
                   ",~. We bo;~t'''' ' hill ,be """'1'"""'.)' &ttd di•• iplin. i tilled with <!OOOO/idotion will                   'D.I"",
                   the DcptUtmen.t to :5wtilin imp;TO"~menl ;md e i'ftdnu,: LB..

                   I RlI.r,; comments on 1     E!   010 '5 spedftiC n:!co:mmenc:b.tLciDS {'GUo"",.

                   Rn'D1rllffI!mkrlwn J: 01(; r<eO."''''mJs 11.;1 lito Ch~fk{I!",,(JrIOil O/ftN'nvJelf' aM ~vin
                   pttforma_ ltJlhicl coN@(. ¢ .. itlli~ IJrr ~Ipd"-Jk nr>'i..", ronUtJel /0 ~ru-.... lIra! ",ronrrU tIT.
                   pJrI i"'f1lac~ I" oddr.-u oaro ...r '-""'jildIrilJ rlit limdiltf!:1S aPId ,Mblt.n.m tl[1fs1l£S,

                   The cul1:"enl Juvice l:llttlr.aJ.: L~Tr(Jmli:IJ1J,;l! IritlRtS; 4ft. Wf.1ttC,iHO ,mce, or ~~ 1bc D:pnnm~nl ' ,;
                   MIlS," Scrvir~ l.e,...1 "E~m ••' (SLA) "",pnn"'l""r~mDlr". agn__ rs.. TILe S(1\'k>I; llIlIIltm~
                   is a p:rfonnan~,~ OO~'r<!~1 r!lnnp~ 1:» ' IRM, ,,'hiOh                   00II'''''''IIWUro mte.;lh-es aM
                   di,inOO,;l;yt~ Ited 10 ,hi; V(;i\dot'S abilily to meet ,be tIIrll'4 SLA m~tri~~. IRMIOJ>'S.ICSO
                   tlIan.llgemenl cllnJinLlillly reviC\'Ii'3 (fU',jlratt pcltilltf~ , III   rehnlon 10 LA -1IlF umI          meet:,s.
                   fcgul.r~ wi~b Ito. ".!>dor ~~ di""y.. lboir perrformn_ . l10c               o.i=1trt",,,
                                                                                                       11M ,110 .blUt)' to "'.....
                   Qr n:-BeiQtiiit-e the: tQl1tnd in ordt:r Iu (!1UiiR' proper pttrCltfD8JlI:C mcll.ics arc jn pl~C' and beill8
                   m_~ .



                   IIiM 1. -.1"-!lII'l1l'",vcm<llt in mootine SLA
                   R"" •.,.~ in .""""iOl1oe wi.l h
                                                                          ..,..ifl. me.""".del1lrar Rt9Olll1loo.•""impro,,,rl
                                                         tnB."l SLA """[uri,,. bme. I
                                                                                                          l""io.n1~  Servia:
                                                                                                                              from




-
52 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                           UNCLASSIFIED
                                                     UNCLASSIFIED





         !2% ill <ktobcr ZOOS lo 94~~ 0 o...,obcr 201)9. "i1ilc Scrvio< Req"""lS             ,,,,,rea5td
                                                                                                 from U'4 i
         Cklobcr 2008 ",9~% in OcMbe, 2009. To fuRbc r ~ <WI(IChD COOlC""'" the C... toI11Cf
         Sm'i« Ad';",'}' Forum (C F) Tiger T...:n. "fli,c h i. c"m","oed (If customer b~[.
         n:=..,trI. Ve:i. i, CllrKnIiy rcvisinll Ih~ M...... SLA ,<> U.LR tIleif fccdbo>oJ< i. intDTJ1O""OO imo
         [he p<fformllDOC ", .. nc.. The CS AF, wlLlcb i, C<l"'pri>Od Qr Senior Ooporto..,,,, Ofli"als, will
         "" 'i",", .1>Odi.~ • and"I'p.'"''
                                        'he fI""lv...roD Df"'~mvlltd Muter LI'I. I!'lI=1.Jly, I'll, ODd.
         eontTllcl mAlugen; manirur tile ~pon -"''CI1t'Ss 1.0 IiClqloooic.,.":t., and _Cr~ OOr! ftqUest3 an: ..
         d.~y ba9l• . Addi.'io .... lly, , Ix mc".. b.1IgI>, IKM 61ablls:lled 8n illdcllCl'dm' divi .~'n ro """,i"",
         OOIb IT Scmcc C_Er (lT80 and DSD porl'omJ..,cc ."d to 100"'" ~ slimpro"c","'" ",h.m
         ""IlIlnld. l",'<l! of porfOl1J1i1DOO [' ''' docllJllOfi[ed, ,~rlfI.b1t. and will "ill1>lm!d OR inJlepondrn,
        "bowlcdg"'1>Ic "", i ~. "



        R~ .....""lIdotkm 1.. O1G ,_"",nd-i rht>I (I~ hlif lPl{orllWlkm Ojjkq ."....~ i'$ lrDjniog
        program for ~ ,,,,lI1Ildow. ,~ "",,,,,,.haI all illdlvidJ",J htt•., f<NlSIJI•• t bfo..I~dJ[. and
        &1rU1s (0 prt)vidt! cuTlamu ,utplJdrl.

         Th. ITse hdpded: ~ni ••• til., tI'Ii"inB i. an o"8!'iog              'o.k. ,an<! as lRM con. 111"'" I~ ~
         <1><I00I= .hro~ COlOlOlid.-..;.,11. ,"" cI""'JjiDS (]l\'lro"""'Jll .......doI ...",....", n~."""" 1(, I.
         arClI, Under tlte Cl1J1'eIl ttr\rlc:e COMI'3C'. dle \-wu.or VIoi ll u.1n1ml,X;' b:, Ir.llll SM\Iicc Dr: Aoa1y~s
         (sr)A'J ... I""""". lbei••l<ilL~..,d knQwIed!!< in o«I.r It) Jt'I("" tile """,icc ""I.. or ,Ite ITSC.
         TIle",~ rcq";re. "PJnlpriat< ""lniIl8 or all .o~_ .mplo~ " nd lRiM mamgcmCflt
         .....'OCks VI. d~ vtfldkJr '0 remove SDA" ",·ho ·c:chibir ".oM pPlfomtallGC despite n:ml;f.iti;tllTilinil1g
         effort>,

           I<!,,' SDA, .Iw.yo have bc<ft ,cqu~d 10 compl.,•• d.""i~ 1lI",.-ph39Cd trainiQ~ proiPJTl
         wi"", "~begi with 1bc ITIC. p""",. 1 ,""'" 1\>0 """,ko ... d coru;i515 of cJetai!..d c.""..room and
           andH>~ mri.in!. 1'Ita.<e 2 traloill8 Blso lasts tv.'O    ,,1:d;.        ~nd ' r,1CWJ!d 00 mto,oring til. new
         SDI\>. In P!we 2. til, ""'" SDA. ...,,,.. C"l"'ricnc...t D, o. tho                noor ,,""        rne:n'"'"
         Iloor while lYK:klinc .oM v.",k ...,jIlt II..." to ;:vnl,,,-" .he
           ccdiQ~ impruvernOJl I. Addl~"," I)'. all SOAs ..        c"'"
                                                                               ,it..,.
         alool!>i<k to bc.lp .<Id:r<os>; ,"',,"" .1toI .... .., "'" .lte .pIlon... In Phnsc 3, lbe _ . S()A;...,.. '>J'lbo
                                                                                                                 "to"'
                                                                                             g-o..... cd and '" ooto
                                                                                ..,rre"".. ,..mI"!\ .. ""'" 1)1 updol.d t.ow
         and ln~tlfl th~ rclDtcd 10 ITS ~rv il.: t::~ ::tn-St".



         R=mrIll'dndr>tIOif J: 010 "COMmcrod.l 'lrat til. Chit/ ffl[orlltl1l_ 0J!i"r apprf7W! rlr. t:ldHjl.d
         (.-scope (UJd rndoO/..cup< U'r,'IC8 art'a>w til", _u.ar~ ,hi.f irt/brwwli<m Ii) Q// ""nroIfdq,t~
         lnu-oar<!.

         IRM   "*'"""  tha4 <Iori ryi"l ....... b"uDi!arlc. I:! <riti.... ODd         ODd will tDR,i" ... l<> ...,mmun.i"",e
         I,g itlessage n."""Sarding in-rc.ope ~rd (J1l 1~r.Sialpt': st t,,~ ces b)' coo "!Wilily rneding ",ilhC'USlfImtr
         burc3U~ Sl~ IRM-s apPfOU-t;h """115 10 tailor coosotidntion fOl' tcat}i. 'bureau to respect bUre:!
          pecifi, Jlt11lkatimu.. it b: adcullcdly III afro prone to mi:5\lrwiL'"""'I1!tmdiDS ~Jld ul1.cc-na· lW_ Th.e
         prD,J(oCt « lMd carl)' ~dI iQOII1ImUl1ic.:1led exhiJou5ill\''ety Ihe "a,hl ir1 -~ 9('e~ by meetiog "itt.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                     UNCLASSIFIED
                                                                                                                                     -
                                                                                                                                     53 .
                                                            UNCLASSIFIED





                          ill" aJ,d O"'~-. ope lccbnic ...... on M.,cb J. 2009. '""" 4, 2(J()1), ... d AUl!'lo1] , 20091<> <I"city
                          in,... vt:nld Otill-oP- (cpt scf\'ioes, lRM ",,;11aJntJnuc 10 be pro cti,·C' by meeting '"-itt. eus.wmcr
                          bu.~      I,; to m-dcfine: ltIes.e regpoMitM litir:5 ..." ~!QI ry_



                          Rt<:o"""mJat on -I.. 0 10 = mmbMh lhot!be Chi.ef Inform io. Ofllcc'r eJstiff i. nform.lion
                           )'#~1I15 !""'''"y om..., '''''pofl>ibir -.. md dillies ],.,1..-.... oomoUclltcd b~. olJd tbe Bureau
                          "f lnfoI1D.~on Resource M"""gm>tJ>l aDd ..""ly t"",,, otarullll1l< """Ii.,(-..dy acr..... Ub.......lI• .



                                •    IIU. '0 I SO "'" """"ed. dc,             t""    ISSO positioo wi1l1in the Ope,ational SUI'f!OJ1
                                     0. .... ",,,,, '0 btlp coordi.l1.te I.e"" is. .... '" Spril\jl ~f201 O. D<>fino:d mles ',d
                                     ~.i bililte. m ..·.il.bl. all CSO '~ web -Ie
                                     (hlLp:llinn.m.s!a!c gbul!jtcs/otlllCSQlderlulL.A lIi!l.
                                •    [RMllA GlOOni Ri>!< Iw ..en ,,'<lfl~18 \\;m ISSo. lrorn cxlllSOl><bIcd burca<J. to boUer
                                     don"" thlSe rOlH ""d Ie pofl>ibilitic5 and h". dean d"'unl... ..,ioo of til. roles Jmd
                                     re~II.31bilitics teady
                                •    IRMIJA .... Iokrulilcd Ibs, in additio . I" LIofinin~ Ill< roles IIfId r<SpolIIIo;liti... . , i,
                                     impolUil!' '" ~O\'" 1m SLA Ih.. eifi .. bow ,,"ick1r hig. pd<!ri\)' "",klns t • .~
                                     "" JXIrAi illlj lO . plll   • of cln -f"":! """0",,1. ""to OpcnNeI) will (lC<>Ir_

                          [RM prvpo= thi, I\:c",""""oo",io be ",",';LIored cia""" "b<n (be ""mm()l1 d,rn1l"OOl of rol..
                          • 00 ""'JlO<U'biliries. as wdl... LA merri"" (•...". as "'POOlC time). "'''' b.c" ItlCoqlOr~lcd - 0
                          tile LA .~.m'D1< bot"""" .3ch bu.......... [RM.
                          R£oo,ot..,mia/iorJ $: OJO ~mme."ls 1hit!be          hie! [nfoml",lo. omocr, in ~i~" ",ith
                          eu..ott'lO  S.... i... Advi..wy Forum rep"'.."."u...... dcv.1.~p nnd d....mlnaoo l1.li .!!IlL~~mcd
                          prtJC£l~ rD obWB OOrCBJJ 5UIICstioJ1!J aDd 15'00 .'boUl ,be: inionnatio.n lecbnology coasol1cl:Mion
                          proj ....... _II '" tl> ddlrkr .....Ull".. mey r.p""",,' ""' .100 •......,ldDtion """"",,,
                          ~r<iI''' d y_

                          IRM Bg,.,..boJ"",U ;nw,d arJd 1•., r",,,,.1ioo flow. nrc criti.",. n.c       Co""""',,
                                                                                                            Service " ,h'i""I}'
                          I'<lnIm (<.:SAl') provib . "tal];,,): bot"""," c...        'otn"" ...
                                                                                           d [RM, lUId w ••1m • ...e0""'l:"
                          .c~~ blJfeau rtp",sc:nI01""' . "''lien IT CQ,ooIldBlio ..... - -ymed i. OelObcr 200'l •• CSAF
                          CI'ar1« ww; "',eI<>ped and ronnal~ "utlim"!! lilt "",clnc roles ond ""1l"'""",Jitb or CSAF
                          Int"\bc,,    <lee
                                          link ror O1iUkr):
                          http;I(tWpmplidw!ou Slt,te :tIDv(mrJex .clfm'WtU3QlcCEJ)'U b1i:4i;mla!1bhorsttn=:!WGS to,

                          Pl"'1' d;e barter. 1311: SA F c.u~1!I to perform sc¥~er~1 nuin (um:. iow... Suooc       I :application or
                          "Ie     gr th""" ftulClloo ....m ill<:K.... IR M', .htlJty 10 cKeeth'cl.y pi.... d imp\t;mtlfl IT
                          CcmoJida.ion and c.oDliJ1lUouSily ft\'OJ\'e lIIc sn communi1y. bus[nc prOctSS O'll.'Jlm ~ IIfJ
                          servic. pruvid!:n in I~ C "",Ire orgAltiwtio nol !nm.formatli>l1. Members.r th. C'SAF' p<o)Yi<Ie: (I)
                          eollobo<atl<>n: el l gui~.=; od ( J ) .",,,,nUOlnlloo betw.. n blll;eilU' .1Xi IRM .




..   -----------------------------------
54 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                            UNCLASSIFIED
                                                       UNCLASSIFIED





        Th. OlAF """,IS m<IBlhly alId he I'" 10        <Ii..,."~nLfI, ""d Ili ...".;,..,,, e",,,,IIYpo. of
        deli.(...... I~ di=1.l)' 10    orne", ibiJl ".11 help oehic,~ 111. 80"1 of ..,. ·.Iri"ll a "'ared
        "".......;jI of ib.c IT C"...,lid,tlOlIlolll.ali,'e. Th<:sc indud

             •     Provld~nl inpUil iJ\1o I.he IlrUJrilix.atiCIIl ofbu~8Dj, ro tmfls:itici as "''ell rlS lYiuri4fl;a1H.m Dr
                   function" and !CCh Jc rcqlli",mc"Is I ;.sues.
             •     Pro"idi11ll f...,JiDck "lid 'lIjipon to IT Co"",lidAl;'" 1'1lI; e<t Oo<umenlttl;oB """. rdea.od
                   io d",fi    UI¢ IT Coo..,li~.riC)n Wo, k;"J! (Jroup wllbia lh. Sureau of ' nOOtmoljoo
                   Re..,,,,,", M"".~nI           1I",I><:POl1'    tI.. c f ~.te,


        IRM ""wide. lb. CSAf wilh '"Sill .. ""rfo",,''''''' d.tt., ticket iofonn;n;oo, gOO co,"             r.",."",.
                                                                                                                  to
        CI1nbl ~ 4mn5(';!rl.!ocy or lbe
                                      Ill!L!SlI\'(:, [n.1Um. CSAF membeQ mlll,;1 comnWl1lCiUC and ftll.cf thia.
        inr~cmOII;"" to ,loti, ~"",cti''C bY ........ n •• CSA F at"" CC~li11!i1o.lo g"l'P"fl 01!r enm."",""'nJ'
        10 IRM'. S."'i". ~ .. A~''''Jl'' (SU..) oDd                  """ ,ole.
                                                                        in",,' rOl'.1I mO.J'" ....... initiali'.....

        CSA.F m.mbon!1ip "."JIlroll<d ,hroollfl           • TCI!PI ..od pr<>d!:li I   '''1' In lltW 100m""'"
        Mcmbcrmill incltld.c:o; ~ ,lvuu lUW: ute DCpllrtrT'tWI, iDCludin,£ EXoC'CUIIVt! DltOCl.ot9. Office
                                                   I


        l>irecIO .. , ,echnical rCDlC5el1"'i""" , ...,d ...., ~p<<1CJl1al1 os froon nn b~ ....ffcc1etl by IT
        Consolidal io/L 10 I" I, IWO •         m."..
                                                   ~' """'l'rUc '110 CSAF. M.mber.l,. oflhe CS f coq bo
                                                  '0
        clwlccd ....,willll \lo [luclual;o", bwi ...... l>OCds or pooI1ilio<1 chanl!"" - btIl .t.oWd ,..,..in
        ",,,,,,,""""0" Of'M full 'iP'~rIIl1l Qf s1ukelt<Jld.", Dr II,. rr C""",lld.olioo, ",C!JOl1 i. 1.0 0.110'"
        prop'" lIuibilily 101M g'll'JIIii lll.ioo wl.il. m"'rin~ lhal 0", """"'" mi. of oJ.iIIs, .~p<ri._, alId,
        bo<I<E" ,,,nd. are fuJI)' rep"'''''11Icd withi:n lhe <0'" C F ' .am.

        1R.\<t   pro"".,,, ,b.1 thi. ",...,,,,m<»dal;'" be ol<Joed-
        Rwml1,.."da,ion 6, OIG rcoommcnds \bol ll>. c~iM Infoml3lloo Oftlo.. dC\'Clop 8Dd
        dioocmina~ <kWled b\I.,ine
        coMOlid>ll.. goat.. 10 bo a.cbi¢''Cd lOr • ~fu1                 ._Ilt.
                                        """" ~)'" m. 0Ild porformon<¢ roqua..lDC!cls outlinll\S Ibo


        lilt ,OVCSPO GI1lIJ! TborIIton ",LIlly p~wldcd di~ de .. llcd """ir"mclll. """ .I'.mall~ • ...,· ~;"
        ",bieb rcoijjLcd im the S«"'tuy' .<INi,iOlllc co,,"olid. 'c, v••"""...deg,             It,.
                                                                                              d.finod IT ..moe.,
        'I'hc OIG h.. bo<:n pro,;"",, «JIll"" orll", IT C""gc/ldation l'rogr~",·. il"alJ.. IRM', s.,,'I.~
            lJ""'m..... . Ild ,II. <tttJnty Ii _     for lRM, rR M h.. bttn III3ftll8lng 10 theo. pcnolJD.nc:.
         fr'lC8.5\tfC S AJld ",n1i fl1JCS to oommumem lR..\1's progress ~;th i~ C! ~oml:rfi lind ~lal;et.oldm in
        .11 bucr.J;~s.

        [RM P'''I''''"" ,1w.1 11J;, rocomm.ndalion bo clootd.

        R~AdmlYJ~ 7 ; OIG =tJmmOO<a 111M Il>o Cbl<fInfonnotion OffiJ;"" rev"" "",jea
        ~aement rJoc.wncowlOrl to be con.ai-1tclll wi." idcmififil bllSin~~.s, 1iS(it'. sy.s.ClI1 t :aM
        porfumtarJoc: rcq.nm:n0n4.

        IRlYl '!l'"      <11$1 p",j~ "","opnenl docurn ... ,.. .... will ..,.,tllfUC 40 be "'I)(I".d .. npp<OpriOle.




OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                       UNCLASSIFIED
                                                                                                                                     -
                                                                                                                                     55 .
                                                        UNCLASSIFIED





                        R.COJtf",.PJdatj"" . (JIG ,ecommo",," thaI 111 Chi.f Irircmn.Uim MIlOt' l't'Vist 8I1dIor o....uc
                        polky lhroof!h Deparul,enl of SIDle di=th"", ~nd Il>o Fotdgn Alfairo Manll&! '" ",Jlec;t
                        iDfOllltifioo 1lII!IIiJ~1l1 rnaas•• amibu18b1t 10 tlte I 0I1DI1i0n T.<b/lQI"v eo...oUdoti..,
                        P,u,j.cl. 'Ibeoe IJOlklo:o .boold adtir<:,.., II • miniJDum. the ItandlLn8 ·o f ill'o""ooon ,.mool.V
                        pI\IM of actiolBd mi...~OOl.. """,r.m!d (fom comolillotcd buco>.tI .. inform.r;o" ttdu>ology
                        .... ' m_~ ..ronnaoiioo oy5I<IM ••• .,;Iy om«r tMp.lCI"'blll,Ics,.ruI UlC llfOI>Ol",",dlina
                        of ,,,jjsiolHpcciJic ' ormtJIio s1I;ired 00 Dtponmcnt n"""d!s.

                        Th.e CIO _ ".".. willi   ,ro.
                                                  ,0"""""""".doR and bos          di,.."'" lb. upol.le, .. approl"'l81c.   I)   5
                        F M 600 ' UHtkI",.. i!em, ,nioN in tbe OIG DraA R"""",.

                        !I.«om....rrdal1.m~.' 010 rewmm.Ddl; !hoi the Chd.r JnfIlm>Bdoo QlfICCr, ia .<>OI1'liitatilm wltII
                        lbe Cl>icfH"""Jl Cop,,"1OIf""r. kl1"I.,-"",l1 spociBll)' f~wllll d'~I1I~O"" for info.tmBtioJl
                        techno lollY "pcoiaJi." .hro~gb""t III. n.parttn.1U or s ..te to ·C<ISIJl'< that ""trnJlln •  .,."'''''l1.i
                        .... JlCI1:00nin~ inr"""",ioa teoIUO<lIIogy ~i.o ....

                        IRM belio,,,, lbol Ibl.II.-romm"fIIb1ioo ' broodct- Ih.n III. IT C."",lldati         ~nun. lIlId
                        ,booM be cJiminated m Ibi. E~"",,,,,, R"JIClf1.

                        IRM Jlro~ th.:ll Ims: rCCCm:'U CtMI8.tLoB be closed.

                        R"""",,. >Jdll1itm 10:  om      "",,,,,,,,,.ods
                                                                    thai tlte CI>i.flJ1I~I!D.ti"", O""'IIlt,.ban: "'itll bWCilIlO
                        ;nfunna\loo Oft tItc co~ ..timo.1< pcr d...."'p, 10 ;"dud< i><>w UlC C08I c inWe " u.• ...n..... bGw
                        bureou M!ding i. beillg uood [0 suppcn Opel'~tiOII" ODd f'u!w" r«>jcctiuru for """""ioftS BIHI
                        mlllnlona.lc~ of iDfomtali~" tecJtnol~~' .er.lce •.

                        ThraIlS""UI nOK aJld FYil9. IRM old ""m.IU'" m"",inl!" ..,d I"""" h 15 witb Exctuli' "
                                    ""...
                        Oln...'.~J'O,.      us. ."".be . . -r Sen'lc~ Advl...,· F OnD {CSAF) ~rding ,be C051 prj
                        deik!op. hQW il. " ...., d.,l .ed. a.,d 110 flIlding OlJPJl<Irted U.. <>per",;o..... ,d ,fla;nl<lWlo. of JT
                        oem« •. A• • Wo, ' tIll Capitol Feild (WCF).,III. rr Co .. Cm .. r·...I"'Iw~c i. bo..,:I DO iCI>I. 1
                        .,.pen.... -..1l>ich i,ju.,';r,.-d. ",.i< ...-cd• ..oo Of'1>«>--cd t>y EXlWCF. M"" ,ceCllII)" OR
                        ~oomb<r 16.2009. l RM pro vid.d on IT C:"" c."t... FY09 EIld ory" , upd,o lo 10 Ih~CSAl'.
                        d ....wn..,1; ,1>0 plnn=! ""d acl,,' '~po!Il_ rorlh< I1sc&I yellr. (.\t1 L""'omlM:r 16. 2OO~. IRM
                        will m, r,b. eSAI' ''''''', tile fut\lre pet' d•• kll>J> co.1 esrl..... e. """'d on.be IT "",."Jidatian
                        .. bcd~lc JRM "ill «I<II;ouelo brief Senior [kpon"",,,,        Om"i.          bu ........ w>d tbe SAF
                        ~BJUding 1J,(l roS1 per dCSK1QP (1[1 D n::gulur bl.l~;i .




..-----------------------------------
56 . OIG Report No. AUD/IT-10-11, Evaluation of the Information Technology Consolidation Project at the Department of State - Feb. 2010


                                                        UNCLASSIFIED
FRAUD, WASTE, ABUSE, OR MISMANAGEMENT
              of Federal programs

         and resources hurts everyone. 


        Call the Office of Inspector General 

                     HOTLINE 

                    202-647-3320

                 or 1-800-409-9926 

          or e-mail oighotline@state.gov 

       to report illegal or wasteful activities.

               You may also write to
            Office of Inspector General
             U.S. Department of State
               Post Office Box 9778
               Arlington, VA 22219
            Please visit our Web site at:
                http://oig.state.gov

         Cables to the Inspector General
        should be slugged “OIG Channel”
            to ensure confidentiality.
